No. 19In the

Supreme Court of the United States

AER ADVISORS INC.; WILLIAM J. DEUTSCH;
PETER E. DEUTSCH,
Petitioners,
v.
FIDELITY BROKERAGE SERVICES, LLC,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI

Howard Graff
Counsel of Record
A rent Fox LLP
1301 Avenue of the Americas, 42nd Floor
New York, NY 10019
(212) 484-3900
howard.graff@arentfox.com
Counsel for Petitioners

291062

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
To encourage banks, other financial institutions, and
their employees to report actual or suspected criminal
activity, Congress enacted the Bank Secrecy Act, 31 U.S.C.
§ 5318(g)(3)(A) (“Section 5318”), as part of the AnnunzioWylie Anti-Money Laundering Act of 1992. Section 5318
states that any financial institution that “makes a disclosure
of any possible violation of law or regulation to a government
agency . . . shall not be liable under . . . any constitution,
law, or regulation of any State . . . for such disclosure . . . .”
Despite Section 5318’s clear language and purpose, there is
a well-defined split of opinion as to its meaning. The Court
of Appeals for the First Circuit and the Court of Appeals
for the Second Circuit have held the statute confers absolute
immunity for disclosures of any possible (or even impossible)
crimes. The Court of Appeals for the Eleventh Circuit
and appellate courts in Arkansas, Louisiana, Texas, and
California have instead limited the immunity to disclosures
made in good faith, truthful disclosures, or disclosures
about objectively possible crimes.
Petitioners initiated this case in the Eleventh Circuit.
After it was transferred to the First Circuit, Respondents
successfully invoked absolute immunity conferred by
the transferee circuit before discovery was taken, which
highlights the disorder caused by ambiguity over whether
a federal transferee court must apply its own law or the
law of the transferor court in a diversity case when the
transfer is subject to 28 U.S.C. § 1404(a).
This Petition asks the Court to determine (1) whether
Section 5318 confers (a) absolute immunity for any
disclosure; or (b) immunity only if the disclosure:
(i) is an objectively “possible criminal violation”; and/
or

ii
(ii) is made in good faith; and/or
(iii) is not fraudulent.
This Petition also asks this Court to determine (2)
whether in a diversity case, must the transferee court,
which is receiving jurisdiction pursuant to 28 U.S.C.
§ 1404(a) (i.e., only because of witness convenience), apply
the law of the transferor court (including federal law
allowing for an immunity defense), or the law of its own
court?

iii
PARTIES TO THE PROCEEDING
Petitioners AER Advisors Inc. (“AER”), William J.
Deutsch, and Peter E. Deutsch (William J. Deutsch and
Peter E. Deutsch, together, the “Deutsches”) were the
plaintiffs/appellants below in an action filed initially in the
United States District Court in the Southern District of
Florida and then transferred to the United States District
Court in the District of Massachusetts.
Respondent Fidelity Brokerage Ser vices LLC
(“Fidelity”) was defendant/appellee below.

iv
CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed. R. App. P. 29.6, Petitioner AER
Advisors, LLC states that: (1) it has no parent corporation;
and (2) no publicly held company owns 10% or more of its
stock.

v
DIRECTLY RELATED PROCEEDINGS
The following proceedings are directly related to the
case in this Court:
AER Advisors Inc. et al v. Fidelity Brokerage Svcs.,
LLC, Case No. 9:17-CV-80809, U.S. District Court,
Southern District of Florida (West Palm Beach), Order
Granting Defendants’ Motion To Transfer Venue, dated
November 8, 2017;
AER Advisors Inc. et al v. Fidelity Brokerage Svcs.,
LLC, Case No. 1:17-CV-12214, U.S. District Court, District
of Massachusetts (Boston), Memorandum And Order and
Order Dismissing Case, dated August 22, 2018; and
AER Advisors Inc. et al v. Fidelity Brokerage Svcs.,
LLC, Case No. 18-1884, U.S. Court of Appeals for the
First Circuit, Opinion and Judgment, dated April 17, 2019.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
DIRECTLY RELATED PROCEEDINGS . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
I. Opinions Below  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
II. Basis for Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . 1
III. Statutory Provisions Involved . . . . . . . . . . . . . . . . . . 2
IV.Statement of the Case  . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. Statutory Background . . . . . . . . . . . . . . . . . . . . . . 4
1.

Section 5318 of the Annunzio-Wylie Act  . . 4

2.

28 U.S.C. § 1404(a) . . . . . . . . . . . . . . . . . . . . . 5

B. Petitioners’ Complaint  . . . . . . . . . . . . . . . . . . . . . 6

vii
Table of Contents
Page
C. The Decisions Below  . . . . . . . . . . . . . . . . . . . . . . 11
V. Reasons for Granting the Petition  . . . . . . . . . . . . . . 11
A. This Court must resolve the Circuit split
over whether SAR filers are entitled to
absolute or qualified immunity; courts
holding that absolute immunity applies are
misinterpreting Section 5318 . . . . . . . . . . . . . . . 12
1.

The Eleventh Circuit: immunity
applies when financial institution has
“good faith suspicion that a law or
regulation may have been violated” . . . . . . 13

2.

The Second Circuit quarrels with
t he Elevent h Ci rcu it ’s hold i ng,
f inding instead that SA R f ilers
enjoy absolute immunity . . . . . . . . . . . . . . . 15

3.

T he Fi rst Ci rcu it concu rs w ith
the Second Circuit . . . . . . . . . . . . . . . . . . . . 16

B. Several state courts have interpreted Section
5318 to provide only qualified immunity . . . . . . 18
C. The decision below is incor rect and
should be reversed; Petitioners’ case
perfectly illustrates the impact of the
Circuits’ battling interpretation of Section
5318 on a litigant . . . . . . . . . . . . . . . . . . . . . . . . . . 22

viii
Table of Contents
Page
D. The Supreme Court must also resolve
the existing ambiguity over whether a
federal transferee court must apply its
own law or the law of the transferor court
in a diversity case when the transfer is
pursuant to 28 U.S.C. § 1404(a)  . . . . . . . . . . . . . 25
1.

Under Van Dusen, in a diversity
case, a transferee court receiving
jurisdiction only because of witness
c o n ve n i e n c e s h o u l d a p p l y t h e
law of the transferor court  . . . . . . . . . . . . . 26

2.

This case presents the Supreme
Cou r t w it h t he opp or t u n it y t o
decide whether Van Dusen applies
to defenses based on federal law  . . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

ix
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIRST CIRCUIT, FILED APRIL 17, 2019  . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS, FILED
AUGUST 22, 2018  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27a

x
TABLE OF CITED AUTHORITIES
Page
Cases
AER Advisors Inc. v.
Fidelity Brokerage Servs., LLC
921 F.3d 282 (1st Cir. 2019)  . . . . . . . . . . . . . . . . . . . . . 1
AER Advisors Inc. v.
Fidelity Brokerage Servs., LLC,
327 F. Supp. 3d 278 (D. Mass. 2018) . . . . . . . . . . . . . . 1
Bank of Eureka Springs v. Evans,
109 S.W.3d 672 (Ark. 2003) . . . . . . . . . . . . . . .20, 21, 23
Briscoe v. LaHue,
460 U.S. 325 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Butz v. Economou,
438 U.S. 478 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Chan v. Korean Air Lines, Ltd.,
490 U.S. 122 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Cleavinger v. Saxner,
474 U.S. 193 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Digby v. Texas Bank,
943 S.W.2d 914 (Tex. App. 1997) . . . . . . . . . . . . . 19, 23
Doughty v. Cummings,
28 So.3d 580 (La. Ct. App. 2009) . . . . . . . . . . . . . . . . 21

xi
Cited Authorities
Page
EEOC v. Commercial Office Prods. Co.,
486 U.S. 107 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Ferens v. John Deere Co.,
494 U.S. 516 (1990)  . . . . . . . . . . . . . . . . . . . . . 27, 28, 29
Greene v. Bank of Am.,
156 Cal. Rptr. 3d 901 (Ct. App. 2013)  . . . . . . . . . . . . 21
Hiatt v. Brown,
339 U.S. 103 (1950)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
In Re Korean Air Lines Disaster,
829 F.2d 1171 (D.C. Cir. 1987) . . . . . . . . . . . . . . . . . . 29
Lee v. Bankers Trust Co.,
166 F.3d 540 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 15
Lopez v. First Union Nat’l Bank,
129 F.3d 1186 (11th Cir. 1997) . . . . . . . . . . . . . . passim
Martinez-Rodriguez v. Bank of Am.,
No. C 11-06572 CRB, 2012 WL 967030
(N.D. Cal. Mar. 21, 2012)  . . . . . . . . . . . . . . . . . . . . . . 18
Nixon v. Fitzgerald,
457 U.S. 731 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Pierson v. Ray,
386 U.S. 547 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

xii
Cited Authorities
Page
Richardson v. McKnight,
521 U.S. 399 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Shayesteh v. Cent. Bank,
No. 2:04-CV-488-CW, 2010 WL 417413
(D. Utah Jan. 29, 2010) . . . . . . . . . . . . . . . . . . . . . . . . 18
Stoutt v. Banco Popular de Puerto Rico,
320 F.3d 26 (1st Cir. 2003) . . . . . . . . . . . . . . . . . passim
The Rachuy v. Anchor Bank,
No. A09-299, 2009 WL 3426939
(Minn. Ct. App. Oct. 27, 2009) . . . . . . . . . . . . . . . . . . 21
United States v. Rodgers,
466 U.S. 475, 104 S. Ct. 1942,
80 L. Ed. 2d 492 (1984) . . . . . . . . . . . . . . . . . . . . . . . .  17
Van Dusen v. Barrack,
376 U.S. 612 (1964)  . . . . . . . . . . . . . . . . . . . . . . . passim
Walls v. First State Bank of Miami,
900 S.W.2d 117 (Tex. App. 1995) . . . . . . . . . . . . . 19, 25
Wyatt v. Cole,
504 U.S. 158 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Yerdon v. Henry,
91 F.3d 370 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 25

xiii
Cited Authorities
Page
Statutes and Other Authorities
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1404(a) . . . . . . . . . . . . . . . . . . . . . . . . . . passim
31 U.S.C. § 5318(g)(3)(A) . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
31 C.F.R. § 1023.320(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 9
31 C.F.R. § 1023.320(b)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
I.

Opinions Below

The opinion of the Court of Appeals for the First
Circuit in AER Advisors Inc. v. Fidelity Brokerage Servs.,
LLC is reported at 921 F.3d 282 (1st Cir. 2019). (App. A
to Pet. Cert. 1a-26a).
The decision of the United States District Court
for the District of Massachusetts in AER Advisors Inc.
v. Fidelity Brokerage Servs., LLC is reported at 327
F.Supp.3d 278, 284 (D. Mass. 2018). (App. B to Pet. Cert.
27a–44a).
II. Basis for Jurisdiction
The jurisdiction of this Court is based on 28 U.S.C.
§ 1254(1), which provides that “Cases in the courts of
appeals may be reviewed by the Supreme Court …: (1) By
writ of certiorari granted upon the petition of any party
to any civil … case, before or after rendition of judgment
or decree . . . .” The opinion of the First Circuit entered
on April 17, 2019, and affirming the decision of the United
States District Court for the District of Massachusetts
entered on August 22, 2018, is a judgment within the
meaning of Section 1254(1). See Hiatt v. Brown, 339 U.S.
103, 106 (1950).
On July 3, 2019, Petitioners filed an application to
extend the time to file a petition for a writ of certiorari
from July 16, 2019 to September 13, 2019. On July 8, 2019,
Petitioners’ application was granted by Justice Breyer,
extending the time to file until September 13, 2019.

2
III. Statutory Provisions Involved
This case involves Section 1517(b) of the AnnunzioWylie Act, 106 Stat. 4059-60 (1992), codified, as amended,
at 31 U.S.C. § 5318(g)(3)(A).
Section 5318 provides that:
Any financial institution that makes a voluntary
disclosure of any possible violation of law or
regulation to a government agency or makes
a disclosure pursuant to this subsection or
any other authority, and any director, officer,
employee, or agent of such institution who
makes, or requires another to make any such
disclosure, shall not be liable to any person under
any law or regulation of the United States, any
constitution, law, or regulation of any State or
political subdivision of any State, or under any
contract or other legally enforceable agreement
(including any arbitration agreement), for such
disclosure or for any failure to provide notice of
such disclosure to the person who is the subject
of such disclosure or any other person identified
in the disclosure.
31 U.S.C. § 5318(g)(3)(A).
This case also involves 28 U.S.C. § 1404(a) pursuant
to which the District Court for the Southern District
of Florida transferred Petitioners’ initial action to the
District of Massachusetts.

3
Section 1404(a) provides that: “For the convenience of
parties and witnesses, in the interest of justice, a district
court may transfer any civil action to any other district
or division where it might have been brought or to any
district or division to which all parties have consented.”
IV. Statement of the Case
This case illustrates the serious and dispositive
impact on a litigant resulting from the colliding views of
the Circuit Courts on two important issues. Petitioners
instituted this case in the Eleventh Circuit alleging that:
(i) the challenged disclosure constituted a fraudulent
concealment of the financial institution’s own criminal
conduct; and (ii) that the fraudulently reported conduct
did not satisfy the requirements of Section 5318 (i.e., the
conduct was not “a possible violation of law or regulation”).
Because the Eleventh Circuit does not confer absolute
immunity, a complaint embodying such allegations would
have unquestionably survived a dismissal motion. But,
after the case was transferred under 28 U.S.C. § 1404(a)
(for the convenience of the witnesses) to the First Circuit,
the banking institution successfully invoked absolute
immunity conferred by the transferee circuit so immunity
was granted before discovery and without the testimony
(by deposition or otherwise) of a single witness. This case
therefore also illustrates the turmoil resulting from the
ambiguity over whether a federal transferee court must
apply its own law or the law of the transferor court in a
diversity case when the transfer is for the convenience of
witnesses.

4
A.

Statutory Background
1.

Section 5318 of the Annunzio-Wylie Act

Section 5318 is a potent tool that incentivizes financial
institutions to disclose a possible violation of law. In
exchange for such disclosure, the reporting institution is
granted “immunity,” i.e., released from liability “to any
person.”
The rationale and policy behind Section 5318’s broad
immunity grant is not controversial: it is to aid law
enforcement by incentivizing reports of violations of law.
In furtherance of that purpose, the statute places a strict
precondition upon the grant of immunity. The disclosure
must be of a “possible violation of law or regulation.” Said
another way, the statutory purpose is not to incentivize
the issuance of reports that will be of no use to law
enforcement; i.e., reported facts that could not possibly
constitute a violation of law or were designed to deflect
attention from the reporting institution’s own unlawful
activities.
The text of Section 5318 requires that a reporting
institution identify a possible violation of law, rather
than merely write down anything that would constitute
a violation of written laws or regulations, irrespective
of its possibility. Had the legislature intended to confer
immunity for merely reporting an incident that qualifies
as a violation of a law or regulation, without relation
to whether the violation were objectively possible, it
would have written “any. . . violation of law” in a report
to a “governmental agency” will entitle the reporting
institution to immunity. It did not. Rather, Congress was

5
clear that a reporting institution need identify a “possible
violation of law or regulation to a governmental agency.”
2.

28 U.S.C. § 1404(a)

Under Supreme Court precedent, where a federal
court sitting in diversity is the transferee of a case for the
convenience of witnesses it shall apply the substantive laws
of the transferor jurisdiction. Van Dusen v. Barrack, 376
U.S. 612 (1964). The rationale behind this principle is clear:
There is nothing, however, in the language or
policy of § 1404(a) to justify its use by defendants
to defeat the advantages accruing to plaintiffs
who have chosen a forum which, although it was
inconvenient, was a proper venue.
***
The legislative history of § 1404(a) certainly
does not justify the rather startling conclusion
that one might “get a change of law as a bonus
for a change of venue.” Indeed, an interpretation
accepting such a rule would go far to frustrate
the remedial purposes of § 1404(a). If a change
of law were in the offing, the parties might
well regard the section primarily as a forumshopping instrument. And, more importantly,
courts would at least be reluctant to grant
transfers, despite considerations of convenience,
if to do so might conceivably prejudice the
claim of a plaintiff who had initially selected
a permissible forum. We believe, therefore,
that both the history and purposes of § 1404(a)

6
indicate that it should be regarded as a federal
judicial housekeeping measure, dealing with the
placement of litigation in the federal courts and
generally intended, on the basis of convenience
and fairness, simply to authorize a change of
courtrooms.
Id. at 633-37 (footnotes omitted) (emphasis added).
B. Petitioners’ Complaint
AER, a registered investment advisor, served clients
nationwide with “discretionary investment management
services.” Second Am. Compl. (“SAC”) ¶ 17, AER Advisors
Inc., et al. v. Fidelity Brokerage Svcs., LLC, Case No.
17-civ-12214 (D. Mass Dec. 8, 2017), ECF No. 14. AER
joined the Wealth Central platform of Fidelity in 2009
and exclusively relied on that platform to provide its
investment services to clients. SAC ¶¶ 18-19. Fidelity
promised to assist AER with business development and
growth. SAC ¶ 21. In reliance on that promise, AER
actively solicited business from clients nationwide. Id.
In 2011, AER introduced the “China Gold” investment
strategy and decided to make the strategy the focus of its
business model. SAC ¶¶ 22,111. The China Gold strategy
was based on the expectation that the anomalously low
prices at which some Chinese securities were trading
would “trigger a management buy-out or another privately
driven exit transaction (e.g., a strategic acquisition).” SAC
¶ 22. Fidelity supported China Gold and incorporated the
strategy into its own investing. SAC ¶ 23.
William J. Deutsch is the Chairman of Deutsch Family
Wine & Spirits, and his son Peter E. Deutsch serves as

7
the company’s Chief Executive Officer. SAC ¶¶ 8-9. The
Deutsches were clients of Fidelity’s Family Office Services
(“FFOS”), and eventually participated in AER’s China
Gold strategy. SAC ¶ 25.
After Peter Deutsch joined FFOS, the Deutsches
decided to accumulate a large number of shares of China
Medical Technologies Inc. (“China Medical”), and sell their
position to a strategic buyer or private equity firm. SAC
¶¶ 29-30. Peter Deutsch began acquiring China Medical
shares through his FFOS account in December 2011. SAC
¶ 33. The Deutsches had accumulated nearly 13 million
shares of the company by June 30, 2012. SAC ¶ 34.
On March 5, 2012, Fidelity emailed AER with an
offer for the Deutsches to join its “fully paid lending
program” for their China Medical shares; participation
in the program would permit Fidelity to loan those
shares to the market in return for compensation and
disclosure. SAC ¶ 35. AER replied to Fidelity’s offer with
a straightforward rejection: “Client is not interested in
lending stock.” SAC ¶ 37.
Despite the fact that Fidelity’s request to lend those
shares was denied, between May and early June of 2012,
the company lent nearly 1.8 million of the Deutsches’ China
Medical shares to short sellers or their brokers. SAC ¶ 41.
Fidelity made money from these loans, but the Deutsches
did not receive those benefits they would have received
had they consented to Fidelity’s offer and participated in
the fully paid lending program. They were not notified of
the lending, were not paid any compensation for the loans,
and did not receive any collateral. SAC ¶ 42.

8
On June 11, 2012, after “a routine monthly transfer of
[China Medical] shares between the Deutsches’ margin
accounts,” Fidelity’s lending triggered a recall obligation.
SAC ¶¶ 45-46.
On June 13, 2012, the company issued a recall for about
1.5 million China Medical shares, eventually recalling
approximately 1.8 million China Medical shares over the
next few days. Id.
On June 15, 2012, the Senior Vice President and
head of the Securities Lending Desk of Fidelity Capital
Markets, Ugyen Sass, anticipated a “market disruption”
due to the company’s loans and failed recalls of China
Medical shares. Id.
Then, on June 18, 2012, Fidelity issued its final
batch of recalls. Id. Because the recalls failed, Fidelity
bought roughly 1.2 million shares of China Medical on
the open market between June 19 and June 27, 2012.
Id. As predicted by Fidelity, its own conduct resulted
in a price spike driving the price from $4/share on June
13, 2012 to $11.80/share on June 29, 2012. Said another
way, Fidelity’s conduct on or before that date caused a
“market disruption” on the 18th. By June 15, 2012 (three
days earlier), Fidelity’s senior management knew that its
conduct was about to cause a price spike, and therefore
Fidelity – with complete clarity – understood that what it
had done on or before June 18th had precipitated a short
squeeze.
On June 29, 2012, the Securities and Exchange
Commission (“SEC”) halted the trading of China Medical.
Id.

9
Although there was no possibility that Petitioners
had orchestrated a short squeeze (SAC ¶¶ 58-59) and
Fidelity (as the culprit) knew that Petitioners did not do
so (SAC ¶¶ 59-64), Fidelity filed a Suspicious Activity
Report (“SAR”)1 on July 5, 2012, accusing Petitioners of
attempting to influence a short squeeze. SAC ¶ 56.
As a result of the SAR filing, AER was investigated by
the SEC and required to attend a five-hour interview. SAC
¶¶ 99-101. Ultimately, the SEC decided not to pursue an
enforcement action against AER. SAC ¶ 102. AER spent
hundreds of thousands of dollars to defend itself in these
investigations and “could not, and did not economically
recover.” SAC ¶¶ 106, 115.
The SEC also investigated Peter Deutsch’s trading
activities related to China Medical. SAC ¶¶ 107-08. The
SEC did not pursue an enforcement action, but Peter
Deutsch expended hundreds of thousands of dollars in
defending himself in the investigation, suffered emotional
distress, and had his attention diverted from his business
activities. SAC ¶¶ 109-10.
Petitioners brought this action against Fidelity
seeking redress for Fidelity’s fraudulent concealment of
its own conduct, a cover-up of its illicit lending practices
and market manipulation that created a short squeeze.
As a result of being falsely accused by Fidelity in a SAR,
Petitioners were subject to investigations by various
1. A SAR is the document a “broker or dealer in securities”
files with the Financial Crimes Enforcement Network (“FinCEN”),
to report “any suspicious transaction . . . relevant to the possible
violation of any law or regulation.” 31 C.F.R. § 1023.320(a)(1), (b)(1).

10
state and federal securities-related agencies, and the
Deutsches suffered additional business-related damages
to their business – Deutsch Family Wine & Spirits – that
negatively impacted the value of the equity in it.
This case was initially filed in the United States
District Court for the Southern District of Florida in June
2017. Fidelity moved to dismiss the action for failure to
state a claim upon which relief could be granted (based
upon the immunity for suspicious activity report filings
under Section 5318), lack of personal jurisdiction, and
transfer for the convenience of witnesses. On November
8, 2017, the United States District Court for the Southern
District of Florida transferred the case to the District
Court of Massachusetts for the convenience of witnesses.
In so doing, the court, accepting Fidelity’s representations,
explicitly found that discovery and trial would proceed
most expeditiously and efficiently in Boston.
One month after the transfer for convenience of
witnesses, Petitioners filed their Second Amended
Complaint, asserting thirteen causes of action, all of
which are primarily based on the SAR. The claims are for
negligent reporting (Counts I and II), tortious interference
with existing business relationships (Count III), tortious
interference with prospective business relationships
(Count IV), breach of contract and the covenant of good
faith and fair dealing (Counts V and VI), promissory
estoppel (Count VII), breach of fiduciary duty (Count
VIII), unjust enrichment (Count IX), negligence or gross
negligence (Count X), deceptive and unfair trade practices
(Counts XI and XII), and prima facie tort (Count XIII).

11
Fidelity never answered the SAC. No discovery of
any kind took place; no documents were exchanged and
no testimony (by deposition or otherwise) was adduced
from a single witness.
C.

The Decisions Below

Fidelity moved to dismiss Petitioners’ SAC pursuant to
Fed. R. Civ. P. 12(b)(6), asserting that under Section 5318
it enjoys absolute immunity from liability for the wrongful
conduct alleged in the pleadings; i.e., Fidelity argued that
First Circuit law applied to its claim of immunity under
Section 5318. Petitioners opposed the motion, arguing
that the § 1404(a) transfer left the applicable law – namely,
Eleventh Circuit law – unaffected. After substantial
briefing, on August 22, 2018, the District Court dismissed
the SAC with prejudice. Pet. App. 27a-44a.
On September 13, 2018, Petitioners filed its notice
of appeal to the First Circuit. In an opinion dated April
17, 2019, the First Circuit (Thompson, J.) affirmed the
dismissal of Petitioners’ SAC by the District Court for
the District of Massachusetts. The First Circuit held
that First Circuit law applied to Petitioners’ case and
that, under First Circuit law, a financial institution
– here, Fidelity – receives Section 5318 immunity for
SAR disclosures even for “malicious” or “willfully false”
disclosures. Pet. App. 1a-26a.
V. Reasons For Granting The Petition
As will be discussed further below, this Petition should
be granted for at least the following reasons:

12
a)

There is a distinct split between Circuit Courts
with respect to the scope of immunity under
Section 5318 afforded to those who have filed
SARs;

b)

This battling interpretation of Section 5318, with
some Circuit Courts interpreting Section 5318 to
confer absolute immunity to financial institutions,
and other Circuit Courts conditioning such
immunity upon the SAR filer’s good faith and/or
the absence of fraud has resulted in confusion
and further interpretive discrepancy among the
state courts regarding the proper scope of the
immunity;

c)

This case perfectly illustrates the damaging
impact of the split on a litigant alleging that
a financial institution filed a SAR that was
fraudulent, motivated by bad faith, and/or did
not disclose a “possible criminal violation”; and

d) This case also illustrates the disorder caused by
the current ambiguity over whether a federal
transferee court must apply its own law or the law
of the transferor court in a diversity case when
the transfer is for the convenience of witnesses.
A.

This Court must resolve the Circuit split over
whether SAR filers are entitled to absolute
or qualified immunity; courts holding that
absolute immunity applies are misinterpreting
Section 5318.

As stated above, Congress has granted financial
institutions immunity from liability for filing SARs. See

13
31 U.S.C. § 5318(g)(3)(A). The statute granting immunity
reads:
Any financial institution that makes a voluntary
disclosure of any possible violation of law or
regulation to a government agency . . . shall
not be liable to any person under any law
or reg ulation of the United States, any
constitution, law, or regulation of any State or
political subdivision of any State, or under any
contract or other legally enforceable agreement
(including any arbitration agreement), for such
disclosure . . . .
Id. The scope of this statutory immunity varies from
circuit to circuit, however.
1.

The Eleventh Circuit: immunity applies
when financial institution has “good faith
suspicion that a law or regulation may
have been violated”

The Eleventh Circuit was the first Circuit Court to find
that the Act does not provide absolute immunity. See Lopez
v. First Union Nat’l Bank, 129 F.3d 1186 (11th Cir. 1997).
Lopez concerned two sets of plaintiffs. The first plaintiff,
Lopez, alleged that the defendant bank had provided law
enforcement officials access to information concerning
his account, invoking its duty to report suspicious activity
under the Act. Id. at 1188. After a judicial asset freeze and
settlement of related forfeiture proceedings, Lopez sued
the bank for alleged violations of several federal financial
privacy acts and Florida law. See id. at 1188-89.

14
Pointing to Section 5318’s safe harbor provision, the
defendant bank moved to dismiss Lopez’s lawsuit. The
Eleventh Circuit refused to shield the bank from having
to defend its filing of a SAR, holding that, “[i]n order to
be immune from liability, it is sufficient that a financial
institution have a good faith suspicion that a law or
regulation may have been violated, even if it turns out in
hindsight that none was.” Id. at 1192-93.
Applying this good faith requirement to the case
before it, the Eleventh Circuit concluded that because
Lopez’s complaint, standing alone, admitted to nothing
suspicious about the transactions related to the account,
the bank was not entitled to dismissal:
The problem for First Union at this stage of the
litigation is that it is stuck with the allegations
of the complaint. Those allegations do not show
that First Union had a good faith suspicion that
a law or regulation may have been violated.
None of the allegations indicate that the
transactions associated with Lopez’s account
were suspicious enough to suggest a possible
violation of law.
Lopez, 129 F.3d at 1193 (emphasis added). In short, the
Eleventh Circuit refused to dismiss Lopez’s claim (or the
claims brought by the other set of plaintiffs) because the
allegations did not support a good faith suspicion that the
subject transactions amounted to a “possible violation of
law.” See id. at 1194-96.

15
2.

The Second Circuit quarrels with the
Eleventh Circuit’s holding, finding instead
that SAR filers enjoy absolute immunity

In contrast to the Eleventh Circuit, two federal courts
of appeal – the First Circuit and the Second Circuit –
have given Section 5318 an unusually broad reading as
providing absolute immunity to claims based on the filing
of a SAR.
The Second Circuit was the first court to hold that
the Annunzio-Wylie Act provides absolute immunity,
explicitly rejecting the Eleventh Circuit’s reasoning in
Lopez. See Lee v. Bankers Trust Co., 166 F.3d 540 (2d Cir.
1999); see also id. at 544-45 (recognizing, but disagreeing
with, Lopez). In Lee, a managing director was fired by the
defendant bank following an investigation by the bank
into the misallocation of escheatable funds in certain
unclaimed trust accounts. See id. at 542-43. The former
director sued the bank, alleging that the bank defamed
him in SARs submitted to federal law enforcement
officials; the claim was based on information and belief, as
the former employee never saw the alleged SARs or even
had their existence confirmed. See id. at 543.
The district court dismissed the lawsuit at the outset on
the basis of the safe harbor provision. The Second Circuit
affirmed, rejecting the former bank officer’s argument
that “there is immunity only where the disclosures in the
SAR were made in good faith.” Lee, 166 F.3d at 544. The
court reasoned that:
The plain language of the safe harbor provision
describes an unqualified privilege, never

16
mentioning good faith or any suggestive
analogue thereof. The [Annunzio-Wylie] Act
broadly and unambiguously provides for
immunity from any law (except the federal
Constitution) for any statement made in [a] SAR
by anyone connected to a financial institution.
There is not even a hint that the statements
must be made in good faith in order to benefit
from immunity. Based on the unambiguous
language of the [Annunzio-Wylie] Act, Bankers
Trust enjoys immunity from liability for its
filing of, or any statement made in, an SAR.
Id.
3.

The First Circuit concurs with the Second
Circuit

In Stoutt v. Banco Popular de Puerto Rico, 320 F.3d
26 (1st Cir. 2003), the First Circuit considered cases on
both sides of the split. In Stoutt, the defendant bank filed
a “criminal referral form,” a predecessor document to a
SAR, with the Federal Bureau of Investigation (“FBI”) on
suspicion that a customer was engaged in a check-kiting
scam. See id. at 27-28. The FBI conducted an investigation
and a grand jury indicted Stoutt, though prosecutors
dismissed the charges voluntarily for reasons that were
“unclear” to the First Circuit. See id. at 28-29. Stoutt
then sued the bank.
The First Circuit affirmed the district court’s grant
of summary judgment to the bank under the AnnunzioWylie Act’s safe harbor provision. In doing so, the First
Circuit rejected both the Supreme Court of Arkansas’s

17
“possible violation” analysis (see infra p. 20) and the
Eleventh Circuit’s “good faith” rule. As to the former, the
First Circuit explained:
Conceivably, Stoutt could argue that the report
was not one of a possible violation, even though
so termed and colorably disclosing a possible
crime, if the Bank knew that there was (in
reality) no violation. But this is a nonliteral
reading of the statute, which speaks of “any
possible violation,” and we think it more
straightforward to confront any requirement of
good faith or due care as an implied qualification
of immunity rather than an issue of initial scope.
Here, whatever its internal beliefs, the Bank
did by any objective test identify a “possible
violation.”
Stoutt, 320 F.3d at 30.
Turning to the question of whether good faith is
required for immunity to attach, the First Circuit
ultimately agreed with the Second Circuit that the
immunity is absolute. See id. But even in so holding, the
Court acknowledged that there were at least two “obvious
arguments in this case for a good faith limitation”:
[T]hat a good faith requirement would not
wholly (or perhaps even greatly) discourage the
reports intended by Congress, cf., United States
v. Rodgers, 466 U.S. 475, 483–84, 104 S.Ct.
1942, 80 L.Ed.2d 492 (1984), and that, without
it, individuals like Stoutt could be left without
any civil redress against malicious or wholly
unfounded accusations. The former argument

18
has some force at least as to “voluntary”
reports. The latter argument for a good faith
qualification has obvious weight.
Stoutt, 320 F.3d at 31.
As evidenced above, the battle among federal courts
over whether the Annunzio-Wylie Act provides absolute or
only qualified immunity to financial institutions that make
SAR filings has created a sharp and well-defined conflict;
moreover, as addressed below, this battling statutory
interpretation has had serious impact upon other courts
charged with enforcing the statute. 2
B. Several state courts have interpreted Section
5318 to provide only qualified immunity.
State trial courts and intermediate state appellate
courts have also had to contend with whether the
Annunzio-Wylie Act provides absolute or only qualified
immunity. Even before Lopez, in 1995, the Court of
Appeals of Texas found that the legislative history of the
Annunzio-Wylie Act did not support a finding of absolute
immunity for SAR filers:

2. It follows that the circuit split has left many district
courts to grapple with whether Section 5318 provides qualified
or absolute immunity. Compare Shayesteh v. Cent. Bank, No.
2:04-CV-488-CW, 2010 WL 417413, at *8 (D. Utah Jan. 29, 2010)
(suggesting no immunity for a SAR filer if the SAR was submitted
as a result of “racial [or] other bias”) with Martinez-Rodriguez
v. Bank of Am., No. C 11-06572 CRB, 2012 WL 967030, at *12
(N.D. Cal. Mar. 21, 2012) (“[T]o impose a good faith requirement
on top of this clear statutory text would result in a far narrower
preemption provision.”).

19
Yet, even absent a good faith requirement in the
statute, there is nothing in it or its legislative
history to indicate the drafters intended to
clothe banking institutions and their employees
with impunity when falsely reporting [a]
possible violation of the law. Such a notion,
even aside from being foreign to our principles
of law and sense of justice, was dispelled by
the stated purpose of § 5318 ‘to provide the
broadest possible exemption from civil liability
for reporting of suspicious transactions.’
Walls v. First State Bank of Miami, 900 S.W.2d 117, 123
(Tex. App. 1995), writ denied (July 8, 1996) (emphasis
added) (internal citation omitted). A subsequent Court
of Appeals of Texas case – issued just months before
Lopez – similarly held that there was no immunity when
an “informant withholds critical facts that would cast the
entire report to federal authorities in a different light.”
Digby v. Texas Bank, 943 S.W.2d 914, 926 (Tex. App. 1997).
That court refused to grant immunity when the reported
facts consisted of only those “tending to incriminate the
bank’s customer” while withholding other “critical facts.”
Id. at 927. The Court in Digby continued:
We agree that the immunity afforded to financial
institutions under 31 U.S.C. § 5318 was intended
to be broad, but that federal lawmakers could
not have contemplated disclosures made where
critical mitigating information is deliberately
withheld from federal authorities.
Id.

20
The Supreme Court of Arkansas likewise refused to
grant absolute immunity under Section 5318. Just a few
months following the First Circuit’s decision in Stoutt,
that court reasoned:
The First Circuit’s decision in Stoutt v. Banco
Popular De Puerto Rico, 320 F.3d 26 (2003),
relied upon by the Bank, is not to the contrary.
In that case, a financial institution filed a
‘report of apparent crime’ report with the
FBI and the U.S. Attorney in an abundance of
caution. See id. at 30. Upon the discovery of new
information that made it clear that no crime
had occurred, the U.S. attorney dismissed the
charges. Id. Here, unlike the Bank in Stoutt,
which ‘whatever its internal beliefs...did by any
objective test identify a ‘possible violation,”
id., the Bank of Eureka Springs engaged in
a continuous course of conduct seeking the
prosecution of Mr. Evans by misrepresenting
material facts to the prosecutor.Nor did the
Stoutt bank attempt to derive financial benefit
from the criminal prosecution, as did the Bank
of Eureka Springs when it attempted to settle
the case. Quite simply, there was no objective
identification of a possible violation in this case.
Bank of Eureka Springs v. Evans, 109 S.W.3d 672, 680
(Ark. 2003) (emphasis added). The Arkansas Supreme
Court went on to explain that: “Importantly, the
[Annunzio-Wylie] Act requires there to be a ‘possible’
violation of law – ‘possible’ being the operative word –
before a financial institution can claim protection of the
statute.” Id.

21
The “split among the federal circuits as to whether
the safe harbor provision has a ‘good faith’ requirement”
was more recently considered by the Louisiana Court of
Appeal. That court likewise rejected a bank’s request for
absolute immunity under Section 5318, choosing instead
to follow the reasoning of the Eleventh Circuit in Lopez
and the Supreme Court of Arkansas in Bank of Eureka
Springs. See Doughty v. Cummings, 28 So.3d 580, 583
(La. Ct. App. 2009). Thus, the Louisiana court held that
an ex-employee’s claims for malicious prosecution and
defamation survived an attack at the pleading stage
because the petition alleged that the bank’s disclosures
to federal authorities and bank regulators were false and
made for improper motives (to claim coverage under a D
& O Liability Bond). Id. Assuming those allegations were
true, the bank and its officer “were not reporting a possible
violation, but were merely seeking financial benefit.” Id.
More recently, the California Court of Appeal similarly
held that Annunzio-Wylie Act immunity is not absolute;
it shields a bank or employee from liability only for true
disclosures. Greene v. Bank of Am., 156 Cal. Rptr. 3d 901,
909 (Ct. App. 2013). Other state courts, however, have
allied with the First and Second Circuits, holding that
the Annunzio-Wylie Act provides SAR filers with absolute
immunity. See, e.g., The Rachuy v. Anchor Bank, No. A09299, 2009 WL 3426939, at *2 (Minn. Ct. App. Oct. 27, 2009)
(“Appellant’s contention that respondent lacked good faith
in reporting to law enforcement is irrelevant because [the
Act] does not contain a good-faith requirement.”).
All told, there is considerable confusion and division
over this issue: whether financial institutions are granted
absolute immunity with respect to SARs. Guidance from

22
this Court is required to erase that confusion and establish
a uniform national rule governing this important question
of federal immunity.
C.

The decision below is incorrect and should
be reversed; Petitioners’ case perfectly
illustrates the impact of the Circuits’ battling
interpretation of Section 5318 on a litigant.

Relying on Stoutt, the First Circuit (Thompson, J.)
held that “the BSA immunizes financial institutions even
if their ‘disclosures [are] unfounded, incomplete, careless
and even malicious,” just so long as they identify “a possible
violation” of law — something the bank had done there.’”
Pet. App. 9a (quoting Stoutt, 320 F.3d at 32). Recognizing
the split in authority on the issue of immunity, the First
Circuit remarked that “Stoutt remains binding on us until
(a) the Supreme Court or the First Circuit sitting en banc
judicially overrules it; (b) Congress statutorily overrules
it; or, in exceedingly infrequent situations, (c) nonbinding but compelling caselaw convinces us to abandon
it.” Id. Now is the time for this Court to overrule the
line of authority granting financial institutions absolute
immunity, including the courts in the First Circuit, for
disclosures of impossible violations of law or regulation.
Section 5318 explicitly states that the disclosure of
actual or suspected criminal activity to a government
agency must be concerning a “possible violation of law
or regulation.” In this case, it was impossible for the
Petitioners to have engineered an alleged short squeeze
caused by their account transfer. Instead, it was Fidelity’s
conduct (on or before June 18th) that caused a “market
disruption” – and Fidelity knew it. Id. Indeed, only three

23
days earlier, Fidelity’s Senior Vice President and head of
the Securities Lending Desk of Fidelity Capital Markets
anticipated just such a “market disruption” triggered
by the company’s unauthorized loans of the Deutsches’
shares and failed recalls. Id. Under the law of the Eleventh
Circuit, and the Supreme Court of Arkansas – to name
just two jurisdictions – Petitioners’ claims survive
Fidelity’s motion to dismiss because there was no objective
identification of a possible violation of law or regulation.
See Lopez, 129 F.3d at 1193; Bank of Eureka Springs, 109
S.W.3d at 680. But under the law of the First and Second
Circuits, even knowing disclosure of impossible crimes
grants immunity to the SAR filer.
Moreover, Petitioners allege that Fidelity incriminated
Petitioners in the SAR in order to conceal Fidelity’s own
unlawful conduct (the violation of multiple securities
laws and regulations), such that the SAR misrepresented
material facts and omitted others for the purpose of
distorting the truth. In those circuits and states where
SAR filers have absolute immunity, Fidelity would be
exempt from liability, regardless of the bad faith they are
alleged to have exhibited in filing a false SAR. In circuits
and states where SAR filers have only qualified immunity,
however, Fidelity could be held liable, owing in part to the
rationale articulated by the Texas Court of Appeals that
while immunity afforded to financial institutions under
Section 5318 was intended to be broad, “federal lawmakers
could not have contemplated disclosures made where
critical mitigating information is deliberately withheld
from federal authorities.” Digby, 943 S.W.2d at 927.
Furthermore, prior Supreme Court precedent clearly
indicates that immunity analysis rests on functional

24
categories, not on the status of the defendant. Briscoe v.
LaHue, 460 U.S. 325, 342 (1983). Absolute immunity flows
not from rank or title or “location within the Government,”
but from the “special nature” of the responsibilities
of the individual official (see Butz v. Economou, 438
U.S. 478, 511 (1978); see also Briscoe, 460 U.S. at 342),
and it is granted extremely sparingly under the law.
Importantly, while the immunity may be “absolute,” it
only extends to limited conduct. Judges are absolutely
immune from liability for damages for acts committed
within their judicial jurisdiction (see Pierson v. Ray,
386 U.S. 547, 553–554 (1967)), and the President enjoys
absolute immunity from damages liability predicated
on an official act (see Nixon v. Fitzgerald, 457 U.S. 731,
744–758 (1982)), in general, qualified immunity is the norm
(see Cleavinger v. Saxner, 474 U.S. 193, 199 (1985)). The
Supreme Court has rejected extending qualified immunity
to private parties. See, e.g., Wyatt v. Cole, 504 U.S. 158,
168 (1992) (finding that immunity was not an available
defense for private defendants with no connection to
government interest because “the rationales mandating
qualified immunity for public officials are not applicable
to private parties”); Richardson v. McKnight, 521 U.S.
399, 412 (1997) (holding that private prison guards could
not use qualified immunity as a defense to a § 1983 claim
because there was no historical basis for immunity and
policy concerns did not weigh heavily enough in favor of
the defendants).
Immunity for SAR filers whose disclosures are
objectively not possible violations of the law or regulations,
or were made in bad faith, or are fraudulent, does nothing
to fulfill the purpose of Section 5318, which is to (among
other things) make money laundering more difficult

25
to propagate, and to prevent banks from becoming
unknowing intermediaries in illicit activity. See Walls,
900 S.W.2d at 123 (“there is nothing in it [Section 5318]
or its legislative history to indicate the drafters intended
to clothe banking institutions and their employees with
impunity when falsely reporting possible violation of
the law”). Instead, absolute immunity permits financial
institutions such as Fidelity (as Petitioners allege) to act
with impunity and wastes the resources of the government
agencies involved in investigating SARs.
Lastly, it would be contrary to the most essential
principles of our legal system to interpret the immunity
afforded under Section 5318 in such a way that perpetrators
of frauds and cover-ups escape liability. See Yerdon
v. Henry, 91 F.3d 370, 376 (2d Cir. 1996) (“Where an
examination of the statute as a whole demonstrates that a
party’s interpretation would lead to ‘absurd or futile results
... plainly at variance with the policy of the legislation as a
whole,’ that interpretation should be rejected”) (quoting
EEOC v. Commercial Office Prods. Co., 486 U.S. 107, 120
(1988)). It is a particularly distorted reading in the context
of Section 5318’s policy goal of aiding law enforcement to
uncover financial frauds and abuses.
D.

The Supreme Court must also resolve the
existing ambiguity over whether a federal
transferee court must apply its own law or
the law of the transferor court in a diversity
case when the transfer is pursuant to 28 U.S.C.
§ 1404(a).

As stated above, this matter was transferred from
the Eleventh Circuit (a “qualified immunity” jurisdiction)

26
to the First Circuit (an “absolute immunity” jurisdiction)
for the convenience of witnesses pursuant to 28 U.S.C.
§ 1404(a). Thus, in a matter of first impression, the
First Circuit was confronted with the issue of whether a
transfer for the convenience of witnesses should result in
a dispositive change in federal statutory law applicable
to the defendant’s affirmative defense. Pet. App. 13a-19a
The First Circuit held that it would apply its own caselaw
interpreting Section 5318 immunity. Pet. App. 20a-26a. –
an irrational outcome caused by murkiness concerning
over a federal transferee court must apply its own law or
the law of the transferor court in a diversity case when
the transfer is for the convenience of witnesses.
As discussed further below, 1) the Supreme Court’s
ruling in Van Dusen suggests that a transfer under
§ 1404(a) does not justify one party getting “a change of
law as a bonus for a change of venue”; and 2) to the extent
an ambiguity exists with respect to whether one federal
court must apply another’s interpretation of federal law
after a case’s transfer for the convenience of witnesses,
that ambiguity must be finally resolved by the Supreme
Court.
1.

Under Van Dusen, in a diversity case, a
transferee court receiving jur isdiction
only because of witness convenience
should apply the law of the transferor
court

The Petition should be granted to clarify whether
Van Dusen applies to an affirmative defense based on
federal law in a diversity action. In Van Dusen, this Court
established the following rule:

27
We conclude, therefore, that in cases such as the
present, where the defendants seek transfer,
the transferee district court must be obligated
to apply the state law that would have been
applied if there had been no change of venue.
A change of venue under § 1404(a) generally
should be, with respect to state law, but a
change of courtrooms.
Van Dusen v. Barrack, 376 U.S. 612, 639 (1964).
The Supreme Court addressed the rule in Van Dusen
in Ferens v. John Deere Co., 494 U.S. 516 (1990), when
the Court was asked to decide whether the rule in Van
Dusen applied where the plaintiffs sought the § 1404(a)
transfer rather than the defendants. The Supreme Court,
relying on its decision in Van Dusen, expanded the rule
in Van Dusen to apply regardless of which party sought
the transfer of venue. Ferens, 494 U.S. at 523. The Court
held that the transferee court must “apply the law of the
transferor court, regardless of who initiates the transfer.
A transfer under Section 1404(a), in other words, does
not change the law applicable to a diversity case.” Id.
(emphasis added).
Here, there is no question that under the logic of
Van Dusen and Ferens, the First Circuit should not have
granted absolute immunity to Fidelity because the “law of
the transferor court,” i.e., the law of the Eleventh Circuit,
recognizes that SAR filers are only entitled to qualified
immunity. By rejecting the reasoning articulated in Van
Dusen and Ferens, and instead applying its own case law
interpreting the immunity afforded to SAR filers under
Section 5318, the First Circuit dismissed Petitioners’ case
with prejudice. Pet. App. 1a-26a.

28
The First Circuit’s decision simply cannot be
reconciled with the Supreme Court’s decisions in Van
Dusen and Ferens, and the intended purpose of § 1404(a).
In support of the holdings in Van Dusen and Ferens, the
Supreme Court stated:
This legislative background supports the view
that § 1404(a) was not designed to narrow
the plaintiff’s venue privilege or to defeat
the state-law advantages that might accrue
from the exercise of this venue privilege but
rather the provision was simply to counteract
the inconvenience that flowed from the venue
statutes by permitting transfer to a convenient
federal court. The legislative history of
§ 1404(a) certainly does not justify the rather
startling conclusion that one might get a change
of law as a bonus for a change of venue. Indeed,
an interpretation accepting such a rule would
go far to frustrate the remedial purposes of
§ 1404(a).
Van Dusen, 376 U.S. at 635-36 (emphasis added). See also
Ferens, 494 U.S. at 522. The Supreme Court has further
reasoned that “[t]he decision to transfer venue under
§ 1404(a) should turn on considerations of convenience and
the interest of justice rather than on the possible prejudice
resulting from a change of law.” Ferens, 494 U.S. at 523.

29
2.

This case presents the Supreme Court
with the opportunity to decide whether
Van Dusen applies to defenses based on
federal law

In arriving at its ruling, the First Circuit distinguished
Van Dusen and Ferens, explaining that those cases dealt
with the application of state law to questions of state law
in diversity cases transferred under 28 U.S.C. § 1404(a),
whereas our case involves the scope and application of a
federal statutory defense under Section 5318. Indeed, to
date, the Supreme Court has not explicitly addressed the
question of whether the rule in Van Dusen applies to a
federal statutory defense.
Moreover, while not directly on point, the Supreme
Court has not yet decided whether the rule articulated
in Van Dusen applies to federal claims. Writing for the
District of Columbia Circuit, Justice Ruth Bader Ginsburg
anticipated the importance of this issue:
The question before us is whether the Van Dusen
rule - that the law applicable in the transferor
forum attends the transfer - should apply to
transferred federal claims. It is a question
meriting attention from Higher Authority.
Congress, it appears, has not focused on the
issue, nor has the Supreme Court addressed it.
In Re Korean Air Lines Disaster, 829 F.2d 1171, 1174 (D.C.
Cir. 1987) (Ginsburg, J.), aff’d on other grounds sub nom.,
Chan v. Korean Air Lines, Ltd., 490 U.S. 122 (1989).

30
Once again, the Supreme Court is presented with the
opportunity to address the issue that Justice Ginsburg
considered a question “meriting attention from Higher
Authority.” See id. at 1174.
The intended purpose of a change of venue under
§ 1404(a) is to permit a transfer within the federal system
for the convenience of the parties and witnesses or in the
interest of justice. 28 U.S.C. § 1404(a) states: “For the
convenience of parties and witnesses, in the interest of
justice, a district court may transfer any civil action to
any other district or division where it might have been
brought.”
Fidelity moved to transfer the case to the US
District Court for the District of Massachusetts under 28
U.S.C. § 1404(a). The Florida district court (that is, the
transferor court) granted the motion because the locus
of the operative facts in the case favored Massachusetts.
(Order Granting Defs’. Mot. To Transfer Venue, AER
Advisors Inc., et al. v. Fidelity Brokerage Svcs., LLC,
Case No. 17-civ-80809 (S.D. Fla., Nov. 11, 2017), ECF No.
40.) Clearly, the District Court for the Southern District
of Florida transferred this matter to the District Court
for the District of Massachusetts to effectuate the very
purpose of § 1404(a) – for the convenience of the witnesses.
After transfer to the Massachusetts district court (that
is, the transferee court), the Petitioners filed an amended
complaint. Fidelity moved to dismiss the Petitioners’
amended complaint because the First Circuit recognized
absolute immunity under Section 5318 for persons filing
a SAR. Notably, they did so before any documents were
exchanged or testimony was adduced from any witnesses

31
in discovery. The Petitioners opposed the motion, arguing
that Eleventh Circuit law applied and therefore only
persons filing a SAR in good faith had immunity. The
Massachusetts district court agreed with Fidelity and
granted the motion to dismiss. Pet. App. 27a-44a.
Petitioners appealed and the First Circuit affirmed
the Massachusetts district court. As a matter of first
impression, the First Circuit held that a district court to
which a case has been transferred should apply its own
circuit’s cases interpreting federal law, rather than cases
in the circuit of the court that transferred the action. Pet.
App. 12a-19a.
The result is particularly unjust in light of the fact that
while the transfer to the First Circuit was allegedly for
the convenience of witnesses, Fidelity moved to dismiss
before any discovery was taken, quite possibly to take
advantage of the split circuit opinions on the degree of
immunity afforded to SAR filers under Section 5318.
Accordingly, the First Circuit’s Opinion conflicts with
the intended purpose of a change of venue under § 1404(a).
It also clashes with the reasoning of Van Dusen that a
change of venue under § 1404(a) “certainly does not justify
the rather startling conclusion that one might get a change
of law as a bonus for a change of venue” and that such
transfers generally should be (with respect to state law)
“but a change of courtrooms.” Van Dusen, 376 U.S. at 639.

32
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Howard Graff
Counsel of Record
A rent Fox LLP
1301 Avenue of the Americas, 42nd Floor
New York, NY 10019
(212) 484-3900
howard.graff@arentfox.com
Counsel for Petitioners
Dated: September 13, 2019

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE FIRST
CIRCUIT, FILED APRIL 17, 2019
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 18-1884
AER ADVISORS, INC.; WILLIAM J. DEUTSCH;
PETER E. DEUTSCH,
Plaintiffs, Appellants,
v.
FIDELITY BROKERAGE SERVICES, LLC,
Defendant, Appellee.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT
OF MASSACHUSETTS
Hon. Patti B. Saris, U.S. District Judge.
Before Thompson, Circuit Judge,
Souter,* Associate Justice,
and Lipez, Circuit Judge.
April 17, 2019, Decided
*  Hon. David H. Souter, Associate Justice (Ret.) of the Supreme
Court of the United States, sitting by designation.

2a
Appendix A
THOMPSON, Circuit Judge. William and Peter
Deutsch, father and son, together with their financial
advisor, AER Advisors (“AER”), ask us to undo the
district judge’s decision dismissing their complaint against
Fidelity Brokerage Services, LLC (“Fidelity”) under
Fed. R. Civ. P. 12(b)(6).1 The judge had deemed Fidelity
immune from suit here based on an immunity provision
in the Bank Secrecy Act (“BSA”), 31 U.S.C. § 5318(g)
(3)(A) — a provision that says, most pertinently, that a
“financial institution that makes a voluntary disclosure of
any possible violation of law or regulation to a government
agency . . . shall not be liable to any person under any law
or regulation of the United States, [or] any constitution,
law, or regulation of any State . . ., for such disclosure.”
Seeing no reason to reverse the judge’s thoughtful
decision, we affirm.
How the Case Got Here
We draw the facts from the complaint’s allegations,
which at this stage of the litigation we must accept as true
and construe in the light most favorable to plaintiffs. See,
e.g., Schatz v. Republican State Leadership Comm., 669
F.3d 50, 55 (1st Cir. 2012).

1. For convenience, we will sometimes refer to AER, William
Deutsch, and Peter Deutsch, collectively, as “plaintiffs.”

3a
Appendix A
Parties’ Dealings
At all times relevant to this suit, AER operated
as a registered investment advisor, serving wealthy
clients nationally. In 2009, AER joined Fidelity’s Wealth
Central platform, giving it access to Fidelity’s investment
technologies — technologies that AER relied on in
advising its clients. William and Peter were two of AER’s
clients. And they were and are, respectively, chairman and
chief executive officer of a billion-dollar company called
Deutsch Family Wine & Spirits.
Starting in 2011 and continuing through part of
2012, the Deutsches pursued a “China Gold” investment
strategy introduced by AER and supported by Fidelity
— a strategy that resulted in their acquiring millions
of shares of China Medical Technologies, Inc. (“China
Medical”), all in the hopes of making a profit from
an eventual management buy-out or a third-party
acquisition of that company. In March 2012, Fidelity
offered the Deutsches the chance to participate in its
“fully paid lending program,” in which they would lend
Fidelity their China Medical shares for an interestbased fee. If they accepted Fidelity’s offer, they probably
would have been able to engineer a “short squeeze.” 2
2. A “short squeeze” involves a
situation when prices of a stock . . . start to move
up sharply and many traders with short positions
are forced to buy stocks or commodities . . . to cover
their positions and prevent losses. This sudden
surge of buying leads to even higher prices, further

4a
Appendix A
aggravating the losses of short sellers who have not
covered their positions.
Tello v. Dean Witter Reynolds, Inc., 410 F.3d 1275, 1277 n.3
(11th Cir. 2005) (quoting John Downes & Jordan Elliot Goodman,
Barron’s Finance & Investment Handbook 807 (6th ed. 2003)),
abrogated on other grounds by Merck & Co. v. Reynolds, 559 U.S.
633, 130 S. Ct. 1784, 176 L. Ed. 2d 582 (2010). To bring a little more
clarity to the matter, we note that a “short position” — mentioned
in the short-squeeze definition — is a technique used by some
investors. As a leading treatise explains:
A “short sale” is . . . any sale of a security which the
seller does not own or any sale which is consummated
by the delivery of a security borrowed by, or for the
account of, the seller. Short selling can be a logical
trading strategy for a trader who believes that the
price of shares is likely to decline over the near-term.
To sell short, the trader typically borrows the shares
from a broker who obtains them either from its own
reserves or from an external source. The trader then
sells the borrowed shares in the open market. At this
point, the trader has an “open short position” in the
stock. At some point in the future, the trader “covers”
the short position by purchasing an identical number
of shares and returning them to the lender. [If,] as
the trader hopes, the share price declines, the trader
earns a profit equal to the difference between the
price at which she sold short and the price at which she
purchased the shares back to cover the short position
(not taking into account fees or commissions). Short
selling can be extremely risky because if the stock
price rises, the trader must cover the short position
at a loss.
23A Jerry W. Markham and Thomas Lee Hazen, Broker-Dealer
Operations Sec. & Comm. Law § 9.7 (citations and some internal

5a
Appendix A
But they declined, saying they had no interest in lending
stock.
Apparently unwilling to take no for an answer,
Fidelity lent about 1.8 million of the Deutsches’ China
Medical shares to short sellers or their brokers between
May and early June 2012. Fidelity made money from these
loans. But the Deutsches got nothing — no notice of what
Fidelity was up to, no collateral to protect their interests,
and no compensation.
On June 11, 2012, after “a routine monthly transfer of
[China Medical] shares between the Deutsches’ margin
accounts,” Fidelity’s surreptitious lending triggered a
recall obligation, basically because Fidelity had loaned
more China Medical securities than legally permitted
(fyi, all dates in the rest of this paragraph refer to 2012
as well). Over the next several days, Fidelity issued recall
notices for about 1.8 million shares. The recalls for about
1.2 million shares failed, however, causing Fidelity to
believe a short squeeze would occur. Ultimately, China
Medical’s stock price went from $4.00 per share on June 13
to $11.80 per share on June 29. Fidelity ended up buying
roughly 1.2 million shares on the open market between
June 19 and June 27. And the Securities and Exchange
Commission (“SEC”) halted trading in China Medical
securities on July 29.

quotation marks omitted) (quoting SEC v. Colonial Inv. Mgmt.
LLC, 659 F. Supp. 2d 467, 470 (S.D.N.Y. 2009), aff’d, 381 F. App’x
27 (2d Cir. 2010)).

6a
Appendix A
Investigations
Sometime around July 5, 2012, Fidelity filed a
suspicious activity report (“SAR”) with the federal
Treasury Department’s Financial Crimes Enforcement
Network, accusing the Deutsches of manipulating China
Medical’s stock price. Plaintiffs base this allegation
on an internal memo written by David Whitlock, an
employee in Fidelity’s Compliance Department, which
they say “upon information and belief . . . reflects the
contents” of the SAR. 3 Whitlock’s memo recommended
that Fidelity’s Investigations, Evaluation and Response
Department investigate the Deutsches’ China Medicalrelated activities because they had “the appearance of
attempting to influence a short squeeze in the stock of
China Medical.” And “a scheme to manipulate the price
or availability of stock in order to cause a short squeeze
is illegal,” his memo added.
In August 2012, the SEC kicked off an investigation
of both AER and Peter Deutsch for (in plaintiffs’
words) “possible market manipulation in the equities of
3. Because a major goal of the BSA is to help law enforcement
react quickly to evidence of financial chicanery, federal law
mandates that SARs be kept confidential so that the SARs’
subjects do not learn that they have come under suspicion. In fact,
federal law forbids financial institutions, government authorities,
and their respective employees from disclosing SARs or even
“any information that would reveal the[ir] existence.” 31 C.F.R.
§ 1023.320(e)(1)(i); 31 U.S.C. § 5318(g)(2)(A). Indeed, federal law
makes it a federal crime to willfully disclose the existence or
contents of an SAR. See 31 U.S.C. § 5322(a).

7a
Appendix A
China Medical.” AER, for example, received one SEC
subpoena and participated in one SEC interview. Peter
also participated in one SEC interview. State securities
agencies investigated AER as well. William was not
investigated at all, apparently (he makes no allegation that
he was). Ultimately, neither the SEC nor the state agencies
pursued enforcement actions against AER or Peter. Still,
AER had to spend hundreds of thousands of dollars in
defending itself and did not “economically recover” from
the ordeal. Peter had to spend hundreds of thousands of
dollars too and suffered emotional distress as well.
Proceedings in the Southern District of Florida
Invoking diversity jurisdiction, the Deutsches and
AER later sued Fidelity in Florida’s federal district court.
Their operative complaint contained an array of Floridalaw claims, including claims predicated on the SAR —
e.g., negligent reporting and misrepresentation, fraud,
and tortious interference with existing and prospective
business relations.
Fidelity eventually moved to dismiss the complaint
or to transfer the case to Massachusetts’s federal district
court. Most pertinently for our purposes, Fidelity’s
dismissal arguments pushed the idea that the BSA
immunized it from any civil liability for filing the SAR.
And its transfer arguments pushed the notion that all
the events leading to the suit happened in or around
Massachusetts. Plaintiffs opposed the motion, contending
among other things that the BSA did not shield Fidelity
from liability for its “bad faith” filing of the SAR and

8a
Appendix A
that Florida was a reasonably convenient forum for all
concerned.
Noting “the vast majority of the facts underpinning
[p]laintiffs’ cause[s] of action did not occur in . . . Florida,”
the federal district court in Florida held that “the locus of
operative facts in this case favors a transfer to the District
of Massachusetts.” So that court transferred the action
to Massachusetts under 28 U.S.C. § 1404(a) and denied
Fidelity’s “other arguments and requests” as moot.4 To
use some legalese, the Florida federal court here was the
“transferor court” and the Massachusetts federal court
was the “transferee court.” See Atl. Marine Constr. Co.
v. U.S. Dist. Court for W. Dist. of Tex., 571 U.S. 49, 64-65,
134 S. Ct. 568, 187 L. Ed. 2d 487 (2013).
Proceedings in the District of Massachusetts
Again asserting diversity jurisdiction, plaintiffs
filed an amended complaint after the transfer, alleging
Florida-law claims for negligent reporting, interference
with existing and prospective business relations, breach of
contract, breach of good faith and fair dealing, promissory
estoppel, breach of fiduciary duty, unjust enrichment,
negligence or gross negligence, deceptive and unfair
trade practices, and prima facie tort. A common theme
in each claim was that Fidelity filed an SAR falsely
4. Section 1404(a) states that “[f]or the convenience of parties
and witnesses, in the interest of justice, a district court may
transfer any civil action to any other district or division where it
might have been brought or to any district or division to which all
parties have consented.”

9a
Appendix A
accusing plaintiffs of trying to manipulate the market for
China Medical stock, which sparked the governmental
investigations.
Fidelity responded with a motion to dismiss the
complaint. First Fidelity argued that First Circuit law
applied to federal questions transferred here under
§ 1404(a). Then citing Stoutt v. Banco Popular de Puerto
Rico, 320 F.3d 26 (1st Cir. 2003), Fidelity wrote “that
the BSA provides a financial institution with absolute
immunity from civil liability for filing a[n] SAR.” The
provision Fidelity relied on says (as we said earlier) that a
“financial institution that makes a voluntary disclosure of
any possible violation of law or regulation to a government
agency . . . shall not be liable to any person under any law
or regulation of the United States, [or] any constitution,
law, or regulation of any State . . ., for such disclosure.”
See 31 U.S.C. § 5318(g)(3)(A) (emphasis added). Keep the
italicized phrase “any possible violation of law” in mind.
Plaintiffs opposed the motion, arguing that the
§ 1404(a) transfer left the applicable law unaffected. Which
meant Eleventh Circuit law, specifically Lopez v. First
Union National Bank of Florida, 129 F.3d 1186 (11th Cir.
1997), controlled and (to quote their memo) holds “that
immunity may be conferred in this case (transferred from
Florida District Court) only with respect to a[n] SAR filing
made in good faith.” And, plaintiffs continued, because
Fidelity used the SAR “as a smoke screen to camouflage
[its] own contraventions of law” and did not “objective[ly]
identif[y] a possible violation” by plaintiffs, Fidelity’s “bad
faith” filing precluded a grant of immunity under the BSA.

10a
Appendix A
Taking up the motion, the district judge wrote that
when federal-law questions arise, “the transferee court
will apply the law of its own circuit” — a “general rule”
that “applies with equal force where a transferee court
is considering a federal statutory defense in a diversity
case.” AER Advisors Inc. v. Fidelity Brokerage Servs.
LLC, 327 F. Supp. 3d 278, 284 (D. Mass. 2018). And with
that, the judge applied this Circuit’s interpretation of the
BSA. Id.
Relying on Stoutt, the judge then wrote that the
BSA grants financial institutions “absolute immunity
from suit, even when [their] disclosures are fabricated or
made with malice” — in other words, there is no “good
faith qualification to [civil] immunity,” meaning this
immunity applies even to fraudulent SARs filed by an
institution to “falsely point blame at others to cover up
its own wrongdoing.” AER Advisors Inc., 327 F. Supp.
3d at 284-85 (discussing Stoutt, 320 F.3d at 30-33). The
judge also rejected plaintiffs’ theory that Fidelity’s SAR
could not have stated a “possible violation of law.” Id. at
285. Even if Fidelity “’knew that there was (in reality)
no violation,’” the judge reasoned, “[b]ased on [p]laintiffs’
own allegations, the SAR . . . ‘was cast’ as a disclosure
of a possible violation of securities law.” Id. (quoting
Stoutt, 320 F.3d at 30). Criminal law, the judge added, is
the mechanism to deter and remedy false reports to the
government, whose agents are quite capable of “filter[ing]
out SARs reporting ‘false charges’ and decid[ing] not to
pursue those investigations.” Id. (quoting Stoutt, 320 F.3d
at 32). So the judge dismissed the case under Rule 12(b)
(6). Id. at 280.

11a
Appendix A
The Parties’ Principal Appellate Arguments
Unhappy with the judge’s ruling, plaintiffs appeal,
making two basic arguments (echoing their positions in
the district court). One is that Eleventh Circuit precedent
applies because the case came to our Circuit via a transfer
order from a court in the Eleventh Circuit. And, plaintiffs
say, Eleventh Circuit precedent holds that BSA immunity
requires a good-faith filing — a requirement not met here
because Fidelity filed “an intentionally misleading SAR
. . . to cover up [its] own wrongdoing.” The second argument
is that even if First Circuit precedent applies, we (in
their words) must not read the BSA as “immuniz[ing]
an institution that filed a report disclosing an objectively
impossible violation that falsely implicated the victim
of the financial institution’s own wrongdoing — leading
the government to investigate the victim rather than
the perpetrator.” To let Fidelity escape scot-free would
frustrate the congressional purpose behind the BSA,
which is to help “law enforcement by incentivizing reports
of violations of law” — “not to incentivize the issuance
of reports that will be of no use to law enforcement; i.e.,
reported facts that could not possibly constitute a violation
of law” (quotations taken from their brief). And they insist
that a trio of state-court opinions support their view of
how BSA immunity should work.
Fidelity, for its part, thinks that plaintiffs are wrong
across the board (repeating what they argued below).
Courts of appeals, Fidelity writes, regularly hold “that a
district court” must “appl[y] the law of its own Circuit to
federal questions (such as whether BSA immunity applies

12a
Appendix A
to Fidelity), including in cases transferred from another
Circuit.” So, Fidelity continues, Stoutt applies and gives
“a financial institution . . . BSA immunity even if it files
a[n] SAR that is ‘wholly unfounded’” (the interior quotation
is from Stoutt, 320 F.3d at 31). On the public-policy front,
Fidelity writes that “[u]nqualified BSA immunity” is
key to the SAR regime — to create an atmosphere that
encourages financial institutions to report dishonestlooking activities without the fear of reprisals in civil
lawsuits. And finally, Fidelity protests that the state-court
cases plaintiffs champion cannot trump our Stoutt opinion.
The Standard of Review
We review the judge’s dismissal decision with fresh
eyes, knowing that she could grant Fidelity’s BSAimmunity-based dismissal motion only if, after taking the
complaint’s well-pleaded facts as true and drawing every
reasonable inference in plaintiffs’ favor, see Schatz, 669
F.3d at 55, the facts establishing Fidelity’s immunity “are
clear on the face of . . . plaintiff[s’] pleading[],” see MedinaPadilla v. U.S. Aviation Underwriters, Inc., 815 F.3d 83,
85 (1st Cir. 2016); see also DeGrandis v. Children’s Hosp.
Boston, 806 F.3d 13, 16 (1st. Cir. 2015).
Our Take
First Circuit Law Governs this Case
First up is plaintiffs’ claim that the judge should
have applied the Eleventh Circuit’s interpretation of
BSA immunity in Lopez, not our interpretation in Stoutt.

13a
Appendix A
Unfortunately for plaintiffs, however, we — like Fidelity
— side with the district judge on this issue. And we spill
a bit of ink to explain why.
While we have yet to consider the subject, every
Circuit to do so has concluded that when one district
court transfers a case to another, the norm is that the
transferee court applies its own Circuit’s cases on the
meaning of federal law — and for a good reason: as Justice
(then Judge) Ginsburg pithily put it, in “the adjudication
of federal claims,” federal courts ordinarily “comprise a
single system in which each tribunal endeavors to apply
a single body of law,” and if different circuits view federal
law differently, then the Supreme Court can restore
“uniformity.” In re Korean Air Lines Disaster of Sept.
1, 1983, 829 F.2d 1171, 1175, 1176, 265 U.S. App. D.C. 39
(D.C. Cir. 1987) (brackets and internal quotation marks
omitted), aff’d on other grounds sub nom. Chan v. Korean
Air Lines, Ltd., 490 U.S. 122, 109 S. Ct. 1676, 104 L. Ed. 2d
113 (1989).5 Notably, and as footnote 5 of our opinion shows,
5. Cases from the Second, Fourth, Fifth, Eighth, Ninth,
and Eleventh Circuits come out the same way. See Menowitz v.
Brown, 991 F.2d 36, 40 (2d Cir. 1993) (noting that “a transferee
federal court should apply its interpretations of federal law, not
the construction of federal law of the transferor circuit”); Bradley
v. United States, 161 F.3d 777, 782 n.4 (4th Cir. 1998) (explaining
that “this court cannot and does not apply the law of another circuit
simply because the case was transferred from the other circuit”);
Tel-Phonic Servs., Inc. v. TBS Int’l, Inc., 975 F.2d 1134, 1138 (5th
Cir. 1992) (emphasizing that “[w]hen a case is transferred from
a district in another circuit, the precedent of the circuit court
encompassing the transferee district court applies to the case on
matters of federal law”); In re TMJ Implants Prods. Liab. Litig.,

14a
Appendix A
even the Eleventh Circuit — the very Circuit whose law
plaintiffs say should apply — flatly rejects the notion that
a transferee court must always use the transferor Circuit’s
interpretation of federal law. See Murphy, 208 F.3d at
966 (concluding that in dealing with a federal commonlaw defense, the transferee court correctly applied its
own Circuit’s law instead of the transferor Circuit’s law
— the rationale being that “[s]ince the federal courts are
all interpreting the same federal law, uniformity does
not require that transferee courts defer to the law of the
transferor circuit”). Persuaded by their legal analyses,
today we join those Circuits and thus conclude that First
Circuit law governs this case.

97 F.3d 1050, 1055 (8th Cir. 1996) (agreeing that “[w]hen analyzing
questions of federal law, the transferee court should apply the law
of the circuit in which it is located”); Newton v. Thomason, 22
F.3d 1455, 1460 (9th Cir. 1994) (declaring that “when reviewing
federal claims, a transferee court in this circuit is bound only by
our circuit’s precedent”); Murphy v. FDIC, 208 F.3d 959, 964, 966
(11th Cir. 2000) (holding that a “transferee court should apply its
own interpretation of federal law”). And cases from the Seventh
and Tenth Circuits reached the same conclusion, albeit in dicta.
See Eckstein v. Balcor Film Inv’rs, 8 F.3d 1121, 1126 (7th Cir.
1993) (pointing out that although “Congress might require one
federal court to apply another’s interpretation of federal law, . . .
§ 1404(a) does not itself do so,” and “agree[ing] with Korean Air
Lines that a transferee court normally should use its own best
judgment about the meaning of federal law when evaluating a
federal claim”); Olcott v. Del. Flood Co., 76 F.3d 1538, 1546 (10th
Cir. 1996) (same). We will have more to say about Eckstein and
Olcott later.

15a
Appendix A
Hold on, plaintiffs insist: two Supreme Court opinions
— Van Dusen v. Barrack, 376 U.S. 612, 636, 84 S. Ct. 805,
11 L. Ed. 2d 945 (1964), and Ferens v. John Deere Co.,
494 U.S. 516, 522-23 (1990), 110 S. Ct. 1274, 108 L. Ed. 2d
443— say that a transfer under § 1404(a) accomplishes “a
change in courtrooms” only, not “a change of law.” Which
means, according to plaintiffs, the law of the transferor
Circuit — here, Eleventh Circuit law — always follows
the case. Though artfully presented, this argument is not
a difference-maker.
Van Dusen and Ferens say that if a federal court
transfers a diversity case under § 1404(a), the transferee
court applies the state law that the transferor court
would have applied to any questions of state law. See Van
Dusen, 376 U.S. at 627; Ferens, 494 U.S. at 524-25. Van
Dusen, for example, held that “where the defendants seek
transfer, the transferee district court must be obligated to
apply the state law that would have been applied if there
had been no change of venue” — in other words, a venue
change “under § 1404(a) generally should be, with respect
to state law, but a change of courtrooms.” See 376 U.S. at
639 (emphasis added). Van Dusen left open the question
whether the same rule “would govern if a plaintiff,” rather
than a defendant, “sought transfer under § 1404(a).” Id. at
640. Ferens answered that question by holding “that the
transferor law should apply regardless of who makes the
§ 1404(a) motion.” 494 U.S. at 531.
Van Dusen and Ferens are diversity cases. And with
diversity cases, federalism commands that federal judges
apply state substantive law exactly as a state court would,

16a
Appendix A
see Erie R.R. Co. v. Tompkins, 304 U.S. 64, 78 (1938), 58
S. Ct. 817, 82 L. Ed. 1188 — a rule that aims to accomplish
two things: prevent forum-shopping, “which had been
encouraged by a regime in which the choice of state or
federal court might determine what substantive law would
govern the litigation,” S.A. Healy Co. v. Milwaukee Metro.
Sewerage Dist., 60 F.3d 305, 309 (7th Cir. 1995) (Posner,
C.J.); and “avoid[]” the “inequitable administration of
the laws,” Hanna v. Plumer, 380 U.S. 460, 468, 85 S. Ct.
1136, 14 L. Ed. 2d 8 (1965).6 Ultimately, and importantly
here, the concern animating Erie — maintaining the
dual dignity of our state and federal systems — animates
Van Dusen and Ferens too. See Van Dusen, 376 U.S. at
638 (explaining that in “[a]pplying” Erie’s “analysis to
§ 1404(a),” courts “should ensure that the ‘accident’ of
federal diversity jurisdiction does not enable a party
to utilize a transfer to achieve a result in federal court
which could not have been achieved in the courts of the
State where the action was filed”); Ferens, 494 U.S. at
524 (stressing that “[t]he policy that § 1404(a) should
not deprive parties of state-law advantages, although
perhaps discernible in the legislative history, has its real
foundation in Erie”).
As for our situation, yes, plaintiffs filed a diversity
complaint alleging scads of state-law claims. But as the
parties recognize, the present appeal (to borrow from
plaintiffs’ brief) “devolves from a dispute surrounding the
6. Actually, though Erie’s rule comes into play most often
in diversity cases, it also applies to state-law claims brought to
federal court via supplemental jurisdiction. See Felder v. Casey,
487 U.S. 131, 151, 108 S. Ct. 2302, 101 L. Ed. 2d 123 (1988).

17a
Appendix A
scope and application” of a federal statutory defense —
which makes this case unlike Van Dusen and Ferens. And
we cannot say it any clearer than now-Justice Ginsburg
did many years ago: “[n]othing” in Van Dusen compels
one federal court to apply another’s interpretation of
federal law after a case’s transfer. See Korean Air Lines,
829 F.2d at 1186. The same goes for Ferens, by the way.
So plaintiffs’ Van Dusen/Ferens-based arguments go
nowhere.
Now, true, Congress sometimes tells a federal court
to apply another’s interpretation of federal law — like
when “Congress . . . instruct[s] federal courts to adopt
state law or federal law of individual circuits as of a given
date,” which implies that “some aspects of federal law will
be ‘geographically non-uniform.’” See 15 Charles Alan
Wright et al., Federal Practice and Procedure § 3846 (4th
ed. 2018). And in that situation, “some courts conclude that
the transferee court should apply the law that would have
been applied by the transferor court’s circuit.” Id.
Two cases plaintiffs cite to fall in that category:
Eckstein, a Seventh Circuit opinion, and Olcott, a Tenth
Circuit opinion. See Eckstein, 8 F.3d at 1126 (“agree[ing]
with Korean Air Lines that a transferee court” should
typically consider federal questions “independently and
reach[] its own decision, without regard to the geographic
location of the events giving rise to the litigation,” but
concluding that § 27A of the Securities Exchange Act of
1934, 15 U.S.C. § 78aa-1, “instructs us to act differently”
on a statute-of-limitations issue); Olcott, 76 F.3d at 1545-

18a
Appendix A
46 (same, quoting Eckstein).7 Our situation, however, does
not involve any congressional command compelling a
transferee court to apply another Circuit’s understanding
of federal law. So despite plaintiffs’ best efforts, they get
no help from Eckstein and Olcott.
Plaintiffs’ brief also hypes two district court opinions:
In re Fresenius Granuflo/NaturaLyte Dialysate Prods.
Liab. Litig., 76 F. Supp. 3d 294 (D. Mass. 2015), and In re
Methyl Tertiary Butyl Ether (MTBE) Prods. Liab. Litig.,
241 F.R.D. 435 (S.D.N.Y. 2007). Fresenius did not involve
a § 1404(a) transfer, however. The issue there was what
state law should apply to plaintiffs’ state-law consumer
protection claim. See 76 F. Supp. 3d at 300-05. And nothing
in Fresenius suggests the district court believed it had to
apply the federal law of any Circuit other than the First
Circuit. In MTBE, the judicial panel on multi-district
litigation transferred plaintiffs’ state-tort lawsuit to a
single district court (the “MDL court”) for consolidated
pre-trial proceedings with other similar suits, knowing
that once these proceedings concluded, each case not
terminated would return to the original district court
for trial. See 241 F.R.D. at 437-40; 28 U.S.C. § 1407. The
7. See generally McMasters v. United States, 260 F.3d 814,
819 (7th Cir. 2001) (emphasizing that “[o]nly where the law of
the United States is specifically intended to be geographically
non-uniform” — such as with § 27A — “should the transferee
court apply the circuit precedent of the transferor court”). But
see Menowitz, 991 F.2d at 40 (holding that because “federal law
(unlike state law) is supposed to be unitary,” a transferee court
should use the law of its Circuit and not the law of the transferor
court when dealing with a § 27A limitations issue).

19a
Appendix A
MDL court held that “[i]n the context of pre-trial issues
such as motions to dismiss . . . section 1407 requires the
application of the law of the transferee circuit where the
motions are being considered.” MTBE, 241 F.R.D. at
439. But for “issues inherently enmeshed with the trial,”
the MDL court said that the law of the transferor courts
should apply because the cases would have to go back to
them for any trial. Id. at 440-41. That situation is nothing
like the one before us. Plainly then, neither of these nonbinding district court opinions helps plaintiffs’ cause. 8
8. As a parting shot on this issue, plaintiffs fume that Fidelity
pulled a fast one, convincing the Florida federal court to transfer
the case (as they put it) for “the conveniences of administering
discovery and trial,” but then moving to dismiss their claims after
the transfer (they make this argument under the heading blasting
the Massachusetts federal court’s use of First Circuit law). To their
way of thinking, principles of judicial estoppel precluded Fidelity
from asking the transferee court to jettison their claims, thus
eliminating the need for discovery and trial. But their argument
does not hold together.
Judicial estoppel applies “when a litigant is playing fast and
loose with the courts, and when intentional self-contradiction is
being used as a means of obtaining unfair advantage” — with
“[u]nfair advantage generally” meaning the “party . . . succeeded
previously with a position directly inconsistent with the one it
currently espouses.” Franco v. Selective Ins. Co., 184 F.3d 4, 9
(1st Cir. 1999) (internal quotation marks omitted); see also Alt.
Sys. Concepts, Inc. v. Synopsys, Inc., 374 F.3d 23, 33 (1st Cir.
2004) (emphasizing that “[t]he doctrine’s primary utility is to
safeguard the integrity of the courts by preventing parties from
improperly manipulating the machinery of the justice system”).
Nothing approaching that scenario happened here. Plaintiffs
suggest that Fidelity kept the BSA-immunity theory under wraps

20a
Appendix A
The long and the short of it is that First Circuit
caselaw interpreting BSA immunity applies here, not
Eleventh Circuit caselaw. And we trudge on.
First Circuit Law Bars Plaintiffs’ Claims
Again, plaintiffs’ basic theory is that Fidelity cannot
get BSA immunity. And that is because, according to
plaintiffs, Fidelity acted in “bad faith” by “intentionally”
filing an SAR that accused them of manipulating the
market to create a short squeeze — all the while knowing
it was “objectively impossible” for them to have done so,
since Fidelity knew its own misconduct had triggered the
short squeeze. And plaintiffs make several arguments
for why they are right and thus should get to bring their
case to trial. But our Stoutt opinion — which involved a
criminal referral form (“CRF”), a predecessor form to the
SAR — pulls the rug out from under them.
The defendant bank in Stoutt filed a CRF with the
FBI, accusing Palmer Stoutt of passing a check he knew he
did not have cash to cover. 320 F.3d at 28. He alleged that
the bank encouraged him to do what he did (for reasons
not relevant here). Id. at 27-28, 32. The bank “cast” the
CRF “as the disclosure of a possible case of bank fraud,”
for later use in the transferee court. Yet, on this record, that is
pure speculation — really, it is worse than that, since the record
(don’t forget) shows Fidelity invoked BSA immunity in the very
same motion in which it alternatively argued for a transfer. Plus
plaintiffs cite no authority (nor can we think of any) embracing
their view that a litigant in Fidelity’s shoes cannot later move to
dismiss a case after securing a § 1404(a) transfer.

21a
Appendix A
unquestionably “a possible” federal offense. Id. at 30. And
after the FBI investigated and arrested him, a federal
grand jury indicted him for that crime. Id. at 28-29.
But the government dismissed the charges (for
reasons not revealed in the record). Id. at 29. Unwilling
to let bygones be bygones, Stoutt (as relevant here) sued
the bank in federal court, alleging only local-law torts. See
id. As an affirmative defense, the bank claimed immunity
from all of Stoutt’s local-law claims under the BSA’s “safe
harbor provision,” which “protects disclosures of ‘any
possible violation of law.’” Id. at 29, 30.9 And the district
court later granted the bank’s BSA-immunity-based
motion for summary judgment. Id. at 29.
Zeroing in on the “any possible violation of law”
phrasing, Stoutt argued on appeal that the provision
implicitly requires that “any suspicions conveyed to the
authorities be held in good faith” — a prerequisite missing
there “because the Bank knew that [he] was innocent
of criminal conduct.” Id. But we would have none of it.
“Conceivably,” we wrote, “Stoutt could argue that the
report was not one of a possible violation, even though so
termed and colorably disclosing a possible crime, if the
Bank knew that there was (in reality) no violation.” Id. at
30. “But,” we added, “this is a non-literal reading of the
statute, which speaks of ‘any possible violation.’” Id. And,
we noted, “whatever its internal beliefs” — Stoutt, again,
9. The version of the BSA that applied in Stoutt is slightly
different from the one that applies now. See id. at 29 n.3. But the
difference does not matter, because both grant civil immunity for
a “disclosure of any possible violation of law.”

22a
Appendix A
claimed the bank was dead certain that he was guiltless
— “the Bank did by any objective test identify a ‘possible
violation.’” Id.
As support for our position, we drove home these
points: Congress could have easily added a good-faith
requirement to the statute but did not. Id. at 31. Actually,
such a “requirement . . . was at one time in the proposed
immunity provision” but got pulled before passage. Id.
Which makes sense, since the provision was (according to
its congressional author) “intended to provide ‘the broadest
possible exemption from civil liability for the reporting of
suspicious transactions.’” Id. (quoting 139 Cong. Rec.
E57-02 (1993)). And as far as Congress’s policy concerns,
“any qualification” on the immunity created by the BSA
“poses practical problems,” including that imposing an
“objective reasonableness” or a “subjective good faith”
requirement on a filing would “obviously create[] a
risk of second guessing” and discourage disclosure. Id.
(emphasis added). More, the risk that an “unfounded” or
“malicious” filing will result in “false charges” is slight
since “ordinarily the disclosures will as a practical matter
be made to the [government] authorities, who provide their
own filter as to what investigations are pursued and made
public.” Id. at 32. More still, “remedies other than private
damage actions are available for wilfully false reports:
private sanctions such as employment termination, and
government penalties such as fines and imprisonment.”10
Id. (citing 18 U.S.C. §§ 1001, 1517).
10. “Wilfully” is the British spelling of the American
“willfully.” See Bryan A. Garner, Garner’s Modern American
Usage 864 (3d ed. 2009).

23a
Appendix A
Given this compendium of considerations, we concluded
that the BSA immunizes financial institutions even if their
“disclosures [are] unfounded, incomplete, careless and
even malicious,” just so long as they identify “a possible
violation” of law — something the bank had done there.
See id. at 32 (internal quotation marks omitted). And in
doing so, we rejected the Eleventh Circuit’s view in Lopez,
129 F.3d at 1192-93 — the very opinion our plaintiffs
urge us to follow — that immunity applies only when “a
financial institution ha[s] a good faith suspicion that a
law or regulation may have been violated.” Instead, we
accepted the Second Circuit’s position in Lee v. Bankers
Trust Company, 166 F.3d 540, 544 (2d Cir. 1999), that the
“plain language of the safe harbor provision describes an
unqualified privilege, never mentioning good faith or any
suggestive analogue thereof.” See Stoutt, 320 F.3d at 30
(siding with the Second Circuit over the Eleventh Circuit).
Now back to our case. Calling Fidelity’s conduct
“deceptive,” “fraudulent,” and “misleading” — words
they use because Fidelity submitted the SAR to conceal
its own crime — plaintiffs’ brief argues at length that
financial institutions cannot get BSA immunity if they
acted in “bad faith.” Which is simply another way of saying
financial institutions can get BSA immunity only if they
acted in “good faith.” But that argument goes poof, given
how it is just like the one we shot down in Stoutt. See 320
F.3d at 30-32.
Ditto for plaintiffs’ contention that BSA immunity does
not apply if the SAR accuses someone of an “objectively
impossible” violation of law — “objectively impossible,”

24a
Appendix A
the argument goes, because Fidelity caused the illegal
short squeeze, not them. But, to repeat, Stoutt expressly
refused to limit BSA immunity by splicing an “objective
reasonableness” requirement into the statute. See id. at 31.
Anyway, if an SAR discloses an “objectively impossible”
violation of law — plaintiffs offer the hypothetical example
of an SAR accusing the Deutsch family of “kill[ing]
Abraham Lincoln in 2012” — we doubt the government
would investigate or prosecute such an accusation. Stoutt
also said with crystalline clarity that this immunity
applies even if a financial institution files an SAR that is
“wholly unfounded.” Id. And we think that phrase is broad
enough to encompass a situation where the SAR claims an
“impossible” or “objectively impossible” violation of law.
Stoutt similarly precludes plaintiffs’ argument “that
an intentionally misleading SAR” prevents Fidelity from
getting BSA immunity. After all, Stoutt firmly ruled
that a financial institution receives BSA immunity for
SAR disclosures even for “malicious” or “wilfully false”
disclosures. Id. at 31-33.
And plaintiffs’ argument about congressional policy is
hardly a difference-maker either. That is so because Stoutt
factored Congress’s policy concerns into its decisional
mix and reached a result that cuts against the very one
plaintiffs push for here.
Having said all this, however, we think it equally
important to reemphasize something Stoutt emphasized.
Which is that even though private actions are off the table,
financial institutions that file malicious or intentionally

25a
Appendix A
false SARs are hardly untouchable. Among other
things, and as Stoutt was at pains to explain, the federal
government can go after them, with fines and prison time
where appropriate. Id. at 32.
Undaunted by Stoutt, plaintiffs still believe they hold
a winning hand, thanks to three state-court opinions
that withheld BSA immunity from an SAR filer that
twisted the truth in its report, just like Fidelity did by not
disclosing that it — and not the Deutsches — had illegally
manipulated the market. The three cases are Bank of
Eureka Springs v. Evans, 353 Ark. 438, 109 S.W.3d 672
(Ark. 2003), Digby v. Tex. Bank, 943 S.W.2d 914 (Tex. App.
1997), and Walls v. First State Bank of Miami, 900 S.W.2d
117 (Tex. App. 1995). The difficulty for plaintiffs is that a
prior panel opinion like Stoutt remains binding on us until
(a) the Supreme Court or the First Circuit sitting en banc
judicially overrules it; (b) Congress statutorily overrules
it; or, in exceedingly infrequent situations, (c) non-binding
but compelling caselaw convinces us to abandon it. See,
e.g., United States v. Walker-Couvertier, 860 F.3d 1, 8 (1st
Cir. 2017), cert. denied sub nom. Lugo-Diaz v. United
States, 138 S. Ct. 1303, 200 L. Ed. 2d 487 (2018), and cert.
denied, 138 S. Ct. 1339 (2018). Exceptions (a) and (b) do not
apply here. As for exception (c), Digby and Walls predate
Stoutt and so lacked the benefit of Stoutt’s reasoning. And
Evans misread Stoutt as requiring an objective basis for
an SAR filing, see 109 S.W.3d at 680, when Stoutt rejected
such a requirement, see 320 F.3d at 31-32. Evans also
provoked a spirited dissent, which scolded the majority
for “substitut[ing]” its “interpretation of a federal statute
for that announced by the great majority of federal courts

26a
Appendix A
interpreting that same statute.” See 109 S.W.3d at 686-87
(Thornton, J., dissenting) (emphasis added). All of which
is to say that we must — and do — follow Stoutt.11
Final Words
Having worked our way through the issues, we affirm
the judgment entered below.12 Each party shall bear its
own costs on appeal.

11. As a last gasp, plaintiffs suggest that because Stoutt
decided the BSA-immunity issue on summary judgment after
discovery, our judge acted “unprecedented[ly]” by kicking out their
claims on a motion to dismiss. The easy answer to this contention
is that the Second Circuit in Lee resolved a BSA-immunity issue
in the context of a motion to dismiss. See 166 F.3d at 543. And we
embraced Lee in Stoutt. See 320 F.3d at 30. Which means plaintiffs’
suggestion does not change the outcome of this case.
12. One last matter. Fidelity also argues that we can affirm
on an alternative ground — namely, that federal law bars it “from
disclosing even whether a[n] SAR was filed, let alone its contents”;
so “[p]laintiffs can never prove that [it] filed an inaccurate SAR”;
and thus it “cannot be forced to defend against [their] claims while,
at the same time, being prohibited from using key exculpatory
evidence.” But given our holding, we do not address that argument.

27a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE DISTRICT
OF MASSACHUSETTS, FILED AUGUST 22, 2018
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No.
17-12214-PBS
AER ADVISORS INC., WILLIAM J. DEUTSCH,
and PETER E. DEUTSCH,
Plaintiffs,
v.
FIDELITY BROKERAGE SERVICES LLC,
Defendant.
August 22, 2018, Decided,
August 22, 2018, Filed
MEMORANDUM AND ORDER
Saris, C.J.
INTRODUCTION
Plaintiffs AER Advisors Inc. (“AER”), William J.
Deutsch, and Peter E. Deutsch bring this action against
Fidelity Brokerage Services LLC (“Fidelity”), alleging

28a
Appendix B
that its unauthorized lending of the Deutsches’ shares
in China Medical Technologies Inc. (“China Medical”),
caused a market disruption in June 2012. To cover up
its role in the market disruption, Fidelity allegedly
implicated Plaintiffs in a false Suspicious Activity Report
(“SAR”), filed with the government. As a result of the
SAR, Plaintiffs claim they were subject to investigations
by various state and federal securities-related agencies.
On November 8, 2017, the United States District
Court for the Southern District of Florida ordered that
the case be transferred to this Court. See Docket No. 40.
One month later, Plaintiffs filed their Second Amended
Complaint (“SAC”) (Docket No. 64), asserting 13 causes
of action, all of which are primarily based on the SAR.
The claims are for negligent reporting (Counts I and II),
tortious interference with existing business relationships
(Count III), tortious interference with prospective
business relationships (Count IV), breach of contract
and the covenant of good faith and fair dealing (Counts
V and VI), promissory estoppel (Count VII), breach of
fiduciary duty (Count VIII), unjust enrichment (Count
IX), negligence or gross negligence (Count X), deceptive
and unfair trade practices (Counts XI and XII), and prima
facie tort (Count XIII).
Fidelity moved to dismiss pursuant to Fed. R. Civ.
P. 12(b)(6), arguing first that it enjoys absolute immunity
from liability for any SAR filed. Second, Fidelity maintains
that any claims predicated on its alleged unlawful
lending of the Deutsches’ shares must be dismissed
under the doctrine of claim preclusion. Finally, Fidelity

29a
Appendix B
argues that AER’s claim for tortious interference with
existing business relationships is barred by the statute
of limitations.
After a hearing, the Court ALLOWS Fidelity’s motion
to dismiss (Docket No. 66).
FACTUAL BACKGROUND
The following factual background comes from
Plaintiffs’ SAC. Plaintiffs’ factual allegations must be
accepted as true at this stage of the litigation. See Foley
v. Wells Fargo Bank, N.A., 772 F.3d 63, 71 (1st Cir. 2014).
I.

The Parties

AER, a registered investment advisor, served clients
nationwide with “discretionary investment management
services.” SAC ¶ 17. AER joined Fidelity’s Wealth
Central platform in 2009 and exclusively relied on that
platform to provide its investment services to clients.
SAC ¶¶ 18-19. Fidelity promised to assist AER with
business development and growth. SAC ¶ 21. In reliance
on that promise, AER actively solicited business from
clients nationwide. SAC ¶ 21. In 2011, AER introduced the
“China Gold” investment strategy and decided to make the
strategy the focus of its business model. SAC ¶¶ 22, 111.
The China Gold strategy was based on the expectation
that the anomalously low prices at which some Chinese
securities were trading would “trigger a management
buy-out or another privately driven exit transaction (e.g.,
a strategic acquisition).” SAC ¶ 22. Fidelity supported

30a
Appendix B
China Gold and incorporated the strategy into its own
investing. SAC ¶ 23.
William Deutsch is the Chairman of Deutsch Family
Wine & Spirits, and Peter Deutsch serves as the company’s
Chief Executive Officer. SAC ¶¶ 8-9. The Deutsches were
clients of Fidelity’s Family Office Services (“FFOS”), and
eventually participated in AER’s China Gold strategy.
SAC ¶¶ 25-26. When Peter Deutsch decided to join FFOS
in November 2011, he accepted Fidelity’s service proposal,
which offered him “seamless and flawless” strategy
execution, institutional-quality brokerage services, and a
“client first,” “conflict-free environment.” SAC ¶¶ 27-28.
Peter Deutsch relied on Fidelity’s promises about the
services it would provide. SAC ¶ 28.
II. The China Medical Investment and Market
Disruption
After Peter Deutsch joined FFOS, the Deutsches
decided to accumulate a large number of shares of China
Medical, gain control of the company, and sell it to a buyer
or private equity firm. See SAC ¶¶ 29-30. Peter Deutsch
began acquiring China Medical shares through his FFOS
account in December 2011. SAC ¶ 33. By February 28,
2012, the Deutsches owned nearly 4.4 million shares of
the company. SAC ¶ 34. They had purchased around 8.6
million additional shares by June 30, 2012. SAC ¶ 34.
Fidelity emailed AER on March 5, 2012, with an offer
for the Deutsches to join its “fully paid lending program”
for their China Medical shares. SAC ¶ 35. In the email,

31a
Appendix B
Fidelity represented that its “securities lending desk in
Capital Markets [was] paying a 5% rate . . . for these hard
to borrow shares.” SAC ¶ 35. The email also acknowledged
that there was “a 100% requirement to hold this position”
and that a “service agreement [would] need to be signed by
the end client to enter into this program.” SAC ¶ 35. If the
Deutsches had accepted Fidelity’s offer, they would have
been in a good position to accomplish a short squeeze.1 See
SAC ¶ 36. However, AER replied to Fidelity’s offer with
a straightforward rejection: “Client is not interested in
lending stock.” SAC ¶ 37. After receiving AER’s email,
Fidelity never advised the Deutsches that they should
move their shares and trade in a cash account, as required
by Fidelity’s internal policy. SAC ¶ 39.
Despite the fact that Fidelity had not received consent
to lend, between May and early June of 2012, the company
lent nearly 1.8 million of the Deutsches’ China Medical
shares to short sellers or their brokers. SAC ¶ 41. Fidelity
made money from these loans, but the Deutsches were not
notified of the lending, were not paid any compensation
for the loans, and did not receive any collateral. SAC
¶ 42. When AER asked Fidelity whether it had lent the
Deutsches’ stock without their authorization, Fidelity
1. A “short squeeze” is a “situation when prices of a stock . . .
start to move up sharply and many traders with short positions are
forced to buy stocks . . . to cover their positions and prevent losses.
This sudden surge of buying leads to even higher prices.” Tello v.
Dean Witter Reynolds, Inc., 410 F.3d 1275, 1277 n.3 (11th Cir. 2005)
(quoting John Downes & Jordan Elliot Goodman, Barron’s Finance
& Investment Handbook 807 (6th ed. 2003)), abrogated on other
grounds, 559 U.S. 633, 130 S. Ct. 1784, 176 L. Ed. 2d 582 (2010).

32a
Appendix B
responded that it could not disclose that information.
See SAC ¶ 49. Peter Deutsch was also told by Amanda
Topping at FFOS that the portion of China Medical stocks
that Fidelity could lend out from his account was “very
small.” SAC ¶ 50.
The wine turned to vinegar in June 2012. On June 11,
2012, after “a routine monthly transfer of [China Medical]
shares between the Deutsches’ margin accounts,”
Fidelity’s lending triggered a recall obligation. SAC
¶¶ 45-46. The company then issued a recall for about
1.5 million shares on June 13, 2012, eventually recalling
approximately 1.8 million shares over the next few days.
SAC ¶ 46. The Senior Vice President and head of the
Securities Lending Desk of Fidelity Capital Markets,
Ugyen Sass, anticipated a short squeeze due to the
company’s loans and failed recalls on June 15, 2012. SAC
¶ 46. Then, on June 18, 2012, Fidelity issued its final batch
of recalls. SAC ¶ 46. Because the recalls failed, Fidelity
bought roughly 1.2 million shares of China Medical on
the open market between June 19 and June 27, 2012.
SAC ¶ 46. The price of the stock increased from $4.00
per share on June 13, 2012, to $11.80 per share on June
29, 2012. SAC ¶ 46.
On June 29, 2012, the Securities and Exchange
Commission (“SEC”) halted the trading of China Medical.
See SAC ¶ 46. 2
2. Although the SAC states that trading was halted on July 29,
2012, the record suggests that trading was actually halted on June
29, 2012. See SAC ¶ 79 (alleging that the SEC lifted the trading halt
on July 16, 2012); see also Docket No. 64-2 at 3 n.1 (noting that the
SEC suspended trading from “6/29/2012 . . . through 07/13/2012”).

33a
Appendix B
III.

The SAR and the January 2013 Letter

Fidelity filed a SAR on July 5, 2012. SAC ¶ 56. A SAR
is the document a “broker or dealer in securities” files with
the Financial Crimes Enforcement Network (“FinCEN”),
to report “any suspicious transaction relevant to a possible
violation of law or regulation.” 31 C.F.R. § 1023.320(a)
(1), (b)(1). The internal draft SAR reports that Fidelity
observed suspicious activity in the Deutsches’ and AER’s
accounts, “which ha[d] the appearance of attempting to
influence a short squeeze in the stock of China Medical.”
Docket No. 64-2 at 3; SAC ¶ 56. The draft SAR also states:
On June 18, 2012, 11,945,520 shares of China
Medical (from five separate Deutsch accounts)
were journaled from type 2 (margin), to type
1 (cash). . . . The result of this action caused
previously loaned out shares to be recalled, and
since they were not delivered, stock loan had to
execute buy-in transactions.
Docket No. 64-2 at 4; SAC ¶ 57. Plaintiffs believe that
this draft SAR reflects the contents of the SAR Fidelity
actually filed. SAC ¶ 56.
Plaintiffs allege that the transfers between the
Deutsches’ accounts did not result in the recall of a
single share of China Medical. SAC ¶ 60. Based on this
fact, Plaintiffs allege that there was no possibility that
they had orchestrated the short squeeze. SAC ¶¶ 58-59.
Moreover, they allege that Fidelity knew that Plaintiffs
did not initiate the short squeeze -- even though the SAR

34a
Appendix B
accused them of it -- because Fidelity issued the recalls
for the shares it had loaned. SAC ¶¶ 59-64. The SAC
alleges that the SAR was simply a smokescreen intended
to disguise the fact that Fidelity’s unlawful lending had
truly triggered the short squeeze. See, e.g., SAC ¶ 59.
To cover up the SAR, Fidelity hid documents
throughout an extended Financial Industry Regulatory
Authority (“FINRA”) arbitration. SAC ¶¶ 84-85. Only
after the United States District Court for the Southern
District of New York ordered documents to be produced
on May 6, 2015 did Plaintiffs learn of Fidelity’s internal
draft of the SAR. See SAC ¶ 96.
After the SAR was filed, Fidelity attempted to
“poach” AER’s clients. SAC ¶ 114. “[I]n or around January
2013,” Fidelity sent letters to AER’s existing clients, which
stated that the two companies no longer had a relationship
and that Fidelity was no longer accepting instruction from
AER on any accounts. SAC ¶ 114. The letter also gave
clients options for managing their Fidelity accounts going
forward. SAC ¶ 114.
IV. Investigations and Damages
As a result of the SAR filing, AER was investigated
by the SEC and required to attend a five-hour interview.
SAC ¶¶ 99-101. Ultimately, the SEC decided not to pursue
an enforcement action against AER. SAC ¶ 102. Both
the Florida Office of Financial Regulation, Division of
Securities, and New Hampshire’s Bureau of Securities
Regulation also investigated AER’s actions, but neither

35a
Appendix B
pursued enforcement. SAC ¶¶ 103- 06. AER spent
hundreds of thousands of dollars on these investigations
and “could not, and did not economically recover.” SAC
¶¶ 106, 115.
The SEC also investigated Peter Deutsch’s trading
activities related to China Medical. SAC ¶¶ 107-08. He
was required to attend an interview with the SEC, which
focused on whether he “intended to artificially manipulate
the market through moving his shares from margin to
cash.” SAC ¶ 108. The SEC did not pursue an enforcement
action, but Peter Deutsch expended hundreds of thousands
of dollars on the investigation, suffered emotional distress,
and had his attention diverted from his business activities.
SAC ¶¶ 109-10.
DISCUSSION
I.

Legal Standard

To survive a Rule 12(b)(6) motion to dismiss, the
factual allegations in a complaint must “state a claim to
relief that is plausible on its face.” Ashcroft v. Iqbal, 556
U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009)
(citing Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127
S. Ct. 1955, 167 L. Ed. 2d 929 (2007)). “A claim has facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id. at
678 (citing Twombly, 550 U.S. at 556). In evaluating the
sufficiency of a complaint, a court “may not disregard
properly pled factual allegations, ‘even if it strikes a savvy

36a
Appendix B
judge that actual proof of those facts is improbable.’”
Ocasio-Hernandez v. Fortuño-Burset, 640 F.3d 1, 12 (1st
Cir. 2011) (quoting Twombly, 550 U.S. at 556).
In some circumstances, affirmative defenses may form
the basis of a motion to dismiss for failure to state a claim.
See Blackstone Realty LLC v. F.D.I.C., 244 F.3d 193, 197
(1st Cir. 2001). When a motion to dismiss is “premised
on the inevitable success of an affirmative defense,” the
court must still look to the allegations in the plaintiff’s
complaint, as it does when considering any Rule 12(b)(6)
motion. Nisselson v. Lernout, 469 F.3d 143, 150 (1st Cir.
2006). Dismissal is only appropriate when “(i) the facts
establishing the defense are definitively ascertainable
from the complaint and the other allowable sources of
information, and (ii) those facts suffice to establish the
affirmative defense with certitude.” Id. (quoting Rodi v. S.
New England Sch. of Law, 389 F.3d 5, 12 (1st Cir. 2004)).
II. Fidelity’s Immunity Under 31 U.S.C. § 5318(g)(3)
Congress has granted financial institutions immunity
from liability for filing SARs. See 31 U.S.C. § 5318(g)(3)
(A). The statute granting immunity reads:
Any financial institution that makes a voluntary
disclosure of any possible violation of law or
regulation to a government agency . . . shall
not be liable to any person under any law
or reg ulation of the United States, any
constitution, law, or regulation of any State or
political subdivision of any State, or under any

37a
Appendix B
contract or other legally enforceable agreement
(including any arbitration agreement), for such
disclosure . . . .
Id. The scope of this statutory immunity varies from
circuit to circuit, however. Compare Stoutt v. Banco
Popular de Puerto Rico, 320 F.3d 26, 30-32 (1st Cir. 2003)
(declining to read good faith requirement into statute),
and Lee v. Bankers Trust Co., 166 F.3d 540, 544-45 (2d
Cir. 1999) (same), with Lopez v. First Union Nat’l Bank
of Fla., 129 F.3d 1186, 1192-93 (11th Cir. 1997) (holding
that immunity applies when financial institution has “good
faith suspicion that a law or regulation may have been
violated”).
Plaintiffs urge the Court to apply the Eleventh
Circuit’s good faith limitation to Fidelity’s immunity
defense because this case was transferred from a Florida
federal court. See Docket No. 72 at 10-13; Docket No. 77
at 6-7. When questions of federal law must be decided,
the transferee court will apply the law of its own circuit.
See Murphy v. F.D.I.C., 208 F.3d 959, 966 (11th Cir. 2000)
(“Since the federal courts are all interpreting the same
federal law, uniformity does not require that transferee
courts defer to the law of the transferor circuit.”); Island
View Residential Treatment Ctr., Inc. v. Bluecross
Blueshield of Mass., Inc., Civ. No. 07-10581-DPW, 2007
U.S. Dist. LEXIS 94901, 2007 WL 4589335, at *9 (D.
Mass. Dec. 28, 2007). This general rule applies with equal
force where a transferee court is considering a federal
statutory defense in a diversity case. The Court therefore
will apply the First Circuit’s interpretation of 31 U.S.C.
§ 5318(g)(3) in Stoutt.

38a
Appendix B
The First Circuit has expressly rejected the idea of
an implicit good faith requirement in § 5318(g)(3). See
Stoutt, 320 F.3d at 30. And it has done so in sweeping
language, indicating that the statute grants absolute
immunity from suit, even when disclosures are fabricated
or made with malice. See id. at 33. In the opinion, the First
Circuit reasoned that Congress did not intend to include
a good faith qualification to immunity because (1) it easily
could have written the requirement into the statute; (2) it
removed a good faith requirement from an earlier draft
of the provision; and (3) any limitation on immunity would
discourage disclosure. See id. at 31-32. Thus, the First
Circuit concluded that § 5318(g)(3) immunizes financial
institutions whose SAR disclosures are “wilfully [sic]
false” or “unfounded, incomplete, careless and even
malicious.” Id. at 32 (internal quotation marks omitted).
Plaintiffs, however, focus on the fact that § 5318(g)
(3) only grants financial institutions immunity when they
report “any possible violation of law or regulation.” See
Docket No. 72 at 7-10; Docket No. 77 at 1-3. They claim
that while Fidelity allegedly reported the Deutsches
for market manipulation in the form of an illegal short
squeeze, SAC ¶ 56, the Deutsches’ activities could not
possibly have caused the short squeeze, see Docket No. 72
at 8-10; Docket No. 77 at 3. Plaintiffs specifically point to
paragraphs 45 through 47 and 60 through 64 in the SAC to
show that Fidelity knew the Deutsches could not possibly
be responsible for the market disruption because Fidelity
itself had caused it. See Docket No. 91 at 41:21-42:5. Since
Fidelity was not reporting an actual “possible violation
of law,” according to Plaintiffs, the conclusion follows
that Fidelity has not met the threshold requirement for

39a
Appendix B
immunity. But in light of Stoutt, the Court is not persuaded
by this argument or by the state court cases Plaintiffs cite
in their briefing.
Stoutt deals specifically with the “any possible
violation” language. In that case, Banco Popular reported
the plaintiff to the FBI for check kiting, or “knowingly
writing a check against an account with insufficient funds,”
which can be a federal offense. Stoutt, 320 F.3d at 28. The
First Circuit noted that the bank’s report “was cast as
the disclosure of a possible case of bank fraud, assuredly
a possible violation of law.” Id. at 30 (emphasis added).
But the plaintiff said that the bank knew he was innocent
all along because he had informed a bank official of his
transactions and “was encouraged to draw on uncollected
funds.” Id. at 29, 32. In assessing the bank’s motion for
summary judgment, the First Circuit explained:
Conceivably, Stoutt could argue that the
report was not one of a possible violation, even
though so termed and colorably disclosing a
possible crime, if the Bank knew that there
was (in reality) no violation. But this is a nonliteral reading of the statute, which speaks of
“any possible violation,” and we think it more
straightforward to confront any requirement of
good faith or due care as an implied qualification
of immunity rather than an issue of initial scope.
Here, whatever its internal beliefs, the Bank
did by any objective test identify a “possible
violation.”
Id. at 30.

40a
Appendix B
Plaintiffs allege that Fidelity’s SAR accused them of
manipulating stock prices by orchestrating an illegal short
squeeze. SAC ¶ 56. Based on Plaintiffs’ own allegations,
the SAR, on its face, “was cast” as a disclosure of a
possible violation of securities law. Accordingly, Fidelity’s
SAR met the “possible violation” threshold for § 5318(g)
(3) immunity.
Finally, Plaintiffs make an additional argument that
fraudulent SARs intended to misdirect suspicion do not
insulate financial institutions from civil liability. See
Docket No. 72 at 3-7; Docket No. 77 at 3-6. This argument
does not make it past Stoutt either. In its analysis, the
First Circuit considered but discounted the fact that
plaintiffs like Stoutt “could be left without any civil redress
against malicious or wholly unfounded accusations.” Id. at
31. Despite that reality, the court said that government
authorities can filter out SARs reporting “false charges”
and decide not to pursue those investigations. Id. at 32.
The First Circuit also concluded that criminal law -including 18 U.S.C. § 1517, which prohibits obstructing
an examination of a financial institution -- was a means of
remedying “wilfully [sic] false reports” by those financial
institutions. Id. Stoutt therefore contemplated that a bank
might falsely point blame at others to cover up its own
wrongdoing and decided that civil immunity should still
attach to the filing of that fraudulent SAR.
To the extent Counts I through XIII are founded on
the alleged SAR, they are dismissed.

41a
Appendix B
III. Claim Preclusion Based on FINRA Arbitration
Award
Fidelity argues that Counts VI, VIII, IX, XI, XII,
and XIII must be dismissed under the claim preclusion
doctrine because they are based in part on the alleged
unlawful lending of the Deutsches’ China Medical stock.
See Docket No. 67 at 12-15. According to Fidelity, the
FINRA arbitration award resolved all of the Deutsches’
unlawful lending claims and precludes their re-litigation
here. See Docket No. 67 at 13-14.
The Court need not decide whether applying the claim
preclusion doctrine would be appropriate in this case. On
two occasions, Plaintiffs have expressly disavowed that
any of their claims in the SAC are premised on unlawful
lending and have reiterated that all claims are based on
the SAR. See Docket No. 72 at 16 (“While claims in the
Arbitration were predicated on the unlawful lending of the
Deutsches’ [China Medical] shares, the Second Amended
Complaint asserts claims predicated on Fidelity’s
fraudulent cover-up scheme and SAR Referral.”); Docket
No. 77 at 10 n.10 (“The six counts Fidelity identified as
[relating to unlawful lending] are expressly predicated
on Fidelity’s ‘fraudulent scheme’ including the filing of a
bogus SAR . . . .”). According to Plaintiffs, the facts about
unlawful lending are included only to provide “background
or context to a different set of claims (those arising from
Fidelity’s bogus SAR and fraudulent cover-up scheme).”
Docket No. 72 at 17 (emphasis in original).
Because Plaintiffs have disclaimed unlawful lending
and reaffirmed the SAR as their foundation for all

42a
Appendix B
asserted claims, the Court does not decide the claim
preclusion issue. The Court dismisses Counts VI, VIII,
IX, XI, XII, and XIII in their entirety, on the ground
that Fidelity enjoys absolute immunity for its SAR filing.
IV. AER’s Tortious Interference with Existing Business
Relationships Claim (Count III)
The only count that remains to be discussed is Count
III, AER’s claim for tortious interference with existing
business relationships. To succeed on this tort claim, a
plaintiff must prove that (1) “a business relationship . .
. of economic benefit” existed; (2) the defendant knew
of that relationship; (3) the defendant intentionally and
maliciously interfered with that relationship; and (4) the
plaintiff suffered a “loss of advantage” as a direct result
of the defendant’s conduct. Comey v. Hill, 387 Mass. 11,
438 N.E.2d 811, 816 (Mass. 1982). 3
The tortious interference claim is based in part
on letters Fidelity sent to AER’s existing clients in or
around January 2013, which explained that Fidelity
had terminated its relationship with AER and included
options for clients to consider going forward. See Docket
No. 64 ¶¶ 114, 132-39. Plaintiffs allege that these letters
were attempts to “poach” AER’s clients. Docket No. 64
¶ 114. Fidelity has moved to dismiss Count III on multiple
grounds, including that the tortious interference claim is
time-barred. See Docket No. 67 at 15-17.
3. Under Florida law, the elements of the tort are very similar.
See Int’l Sales & Serv., Inc. v. Austral Insulated Prods., Inc., 262
F.3d 1152, 1154 (11th Cir. 2001).

43a
Appendix B
Plaintiffs’ position is that the letters are “intertwined
with the SAR” and are “actually part and parcel of the
entire fraudulent scheme by Fidelity which related to the
SAR referral.” Docket No. 91 at 46:5-18. They maintain
that the discovery of the existence of the SAR in 2015
should count as the date of accrual because malicious
intent was not clear until that time. Maybe so, but allowing
AER to use the SAR to show bad intent as a basis for
Fidelity’s liability would violate 31 U.S.C. § 5318(g)(3).
Again, to the extent Count III is based on the SAR or
the discovery of its existence, Fidelity is immune from
liability, even if the claim is timely.
If the Court were to focus solely on the January 2013
letters themselves, the tortious interference claim would
be time-barred under the three-year Massachusetts
statute of limitations, as AER’s attorneys concede. See
Docket No. 91 at 46:19-47:4; see also Mass. Gen. Laws ch.
260, § 2A; Pagliuca v. City of Boston, 35 Mass. App. Ct.
820, 626 N.E.2d 625, 628 (Mass. App. Ct. 1994). Moreover,
even if the Court were to apply Florida’s four-year statute
of limitations, see Fla. Stat. § 95.11(3)(o); Primerica Fin.
Servs., Inc. v. Mitchell, 48 F. Supp. 2d 1363, 1368 (S.D. Fla.
1999), Plaintiffs’ complaint would still be time-barred, as
it was originally filed on July 7, 2017 -- approximately four
and a half years after the letters were sent. Accordingly,
the Court need not engage in a choice-of-law analysis to
determine which state’s law actually applies. Count III
is dismissed.

44a
Appendix B
ORDER
For the foregoing reasons, the Court ALLOWS
Fidelity’s motion to dismiss (Docket No. 66).

/s/ PATTI B. SARIS		
Patti B. Saris
Chief United States District Judge

